<html>
<title> - THE NUCLEAR REGULATORY COMMISSION: POLICY AND GOVERNANCE CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







  THE NUCLEAR REGULATORY COMMISSION: POLICY AND GOVERNANCE CHALLENGES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2013

                               __________

                           Serial No. 113-11




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-376                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
PETE OLSON, Texas                    KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
CORY GARDNER, Colorado               JERRY McNERNEY, California
MIKE POMPEO, Kansas                  BRUCE L. BRALEY, Iowa
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
LEE TERRY, Nebraska                  EDWARD J. MARKEY, Massachusetts
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)
                                 ------                                

                Subcommittee on Environment and Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     6
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    21
    Prepared statement...........................................    22

                               Witnesses

Allison Macfarlane, Chairman, Nuclear Regulatory Commission......     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................    74
Kristine L. Svinicki, Commissioner, Nuclear Regulatory Commission    23
    Answers to submitted questions...............................   108
George Apostolakis, Commissioner, Nuclear Regulatory Commission..    23
    Answers to submitted questions...............................   120
William D. Magwood, IV, Commissioner, Nuclear Regulatory 
  Commission.....................................................    24
    Answers to submitted questions...............................   126
William C. Ostendorff, Commissioner, Nuclear Regulatory 
  Commission.....................................................    25
    Answers to submitted questions...............................   137

                           Submitted Material

List of Nuclear Reglatory Commission (NRC) licensing actions, 
  submitted by Mr. Gingrey.......................................    61
Letter of January 7, 2013, from the National Mining Association 
  to the NRC, submitted by Mr. Burgess...........................    64
Letter of February 7, 2013, from House Members to the NRC, 
  submitted by Mr. Barrow........................................    68
Picture of Emergency Filtered Containment Vent...................    72
Chart entitled, ``Nuclear Regulatory Timeline (Typical--4 Unit 
  Fleet)''.......................................................    73

 
  THE NUCLEAR REGULATORY COMMISSION: POLICY AND GOVERNANCE CHALLENGES

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2013

                  House of Representatives,
           Subcommittee on Environment and Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 9:02 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. John 
Shimkus [Chairman of the Subcommittee on Energy and Power] 
presiding.
    Members present: Representatives Shimkus, Whitfield, 
Scalise, Gingrey, Hall, Pitts, Terry, Murphy, Burgess, Latta, 
Harper, Cassidy, McKinley, Kinzinger, Griffith, Bilirakis, 
Johnson, Barton, Upton (ex officio), Rush, Tonko, Dingell, 
Markey, Engel, Green, Capps, Barrow, Christensen, Castor, 
McNerney, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Press Secretary; Mike 
Bloomquist, General Counsel; Sean Bonyun, Communications 
Director; Allison Busbee, Policy Coordinator, Energy and Power; 
Annie Caputo, Professional Staff Member; Vincent Esposito, 
Fellow, Nuclear Programs; Tim Hassenboehler, Chief Counsel, 
Energy and Power; Alexa Marrero, Deputy Staff Director; David 
McCarthy, Chief Counsel, Environment and the Economy; Mary 
Neumayr, Senior Energy Counsel; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Peter Spencer, 
Professional Staff Member, Oversight; Lyn Walker, Coordinator, 
Admin/Human Resources; Jeff Baran, Democratic Senior Counsel; 
Phil Barnett, Democratic Staff Director; Alison Cassady, 
Democratic Senior Professional Staff Member; Greg Dotson, 
Democratic Staff Director, Energy and Environment; and Caitlin 
Haberman, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I would like to call the hearing to order, and 
welcome our guests and my colleagues. I recognize myself for 5 
minutes for an opening statement.
    Before I do that, there are early votes, as a lot of 
members know. We are going to try to go rapidly through the 
opening statements as quick as possible and then get into our 
round of questioning. We will then break for votes. We will see 
what the will of the committees are. We may have to come back 
to finish up at least the first round. With that, I would like 
to now recognize myself for 5 minutes for my opening statement.
    First, let me welcome you all here. It is nearly 2 years 
since the Fukushima accident and nearly 1 year since the NRC 
issued a suite of requirements responding to the accident. 
Since you last testified before this committee, the NRC 
instituted a moratorium on licensing actions until the agency 
addresses a court remand of its Waste Confidence rule. We have 
also heard announcements two nuclear plants will close 
prematurely and there is speculation in the press that several 
others may also.
    So, it is in this context I would like to discuss the 
defense-in-depth philosophy, which has been fundamental to 
nuclear safety in our country since the industry's inception. I 
am sure we all agree it plays a vital safety role. That was a 
painful lesson for the Japanese to learn and one that was 
highlighted by the Diet report, which stated: ``The defense-in-
depth concept used in other countries has still not been fully 
considered.''
    With the Atomic Energy Act, Congress endeavored to balance 
the benefits that nuclear energy brings to the general welfare 
with protection of public health and safety. I am concerned the 
Commission risks undermining this balance by shifting to an 
unlimited application of the defense-in-depth philosophy in 
reaction to the Fukushima accident.
    Defense-in-depth has, or should have, a sensible 
constraint. For example, I understand there is a three-unit 
nuclear plant here in the United States, which currently has 
eight emergency diesel generators. These reactors need six 
generators to ensure safety in case the plant loses access to 
offsite supplies of electricity. That means this site has two 
redundant spares. In the wake of Fukushima, this site will add 
two more in a separate bunker away from the plant for a total 
of ten diesel generators.
    An unmanaged application of the defense-in-depth philosophy 
would question why stop at 10? Why not have 20? Or a hundred? I 
don't know what the right number is. However, common sense and 
critical thinking should show that at some point there are 
diminishing safety benefits from additional generators. It 
seems to me cost-benefit analysis provides a necessary and 
sensible constraint in this situation: that safety gains should 
be significant enough to outweigh additional costs.
    Unfortunately, with the NRC staff's filtered-vents 
proposal, we have exactly the opposite. The staff's 
recommendation to mandate filtered vent structures failed the 
cost-benefit test so the staff chose to justify the mandate 
based upon the defense-in-depth philosophy. The staff 
recommended this mandate against the advice of the NRC's body 
of experts, the Advisory Committee on Reactor Safeguards. That 
committee advised a more holistic approach, recognizing that 
all plants are different and a one-size-fits-all mandate may 
create unintended consequences.
    As the Near-term Task Force wrote in their 2011 report 
following the Fukushima accident: ``Adequate protection has 
typically only led to requirements addressing beyond-design-
basis concerns when they were found to be associated with a 
substantial enhancement in safety and justified in terms of 
cost.''
    Recommendation one in their report was that the Commission 
should reassess the role that the defense-in-depth philosophy 
should play. While the Commission has not resolved this policy 
question, agency staff nonetheless appears to be embedding its 
preferred approach in the filtered-vent recommendation. I don't 
think the staff should attempt to set policy on a matter on 
which the Commission has not yet reached a conclusion.
    Furthermore, this matter was raised in our January 15th 
letter, which 20 of my colleagues and I signed, and the 
Commission's response was unsatisfactory beginning with the 
failure to answer our very first question: When will the NRC 
conduct a gap analysis of the regulation differences between 
the United States and Japan? I expect some of my colleagues 
will likely share some additional concerns with your response. 
I am disappointed that you didn't take your communication with 
members of this committee more seriously and I expect that you 
will do that in the future.
    I again want to thank you all for being here today. I look 
forward to your testimony.
    [The statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    First, let me welcome you all here. It is nearly two years 
since the Fukushima accident and nearly one year since the NRC 
issued a suite of requirements responding to the accident. 
Since you last testified before this Committee, the NRC 
instituted a moratorium on licensing actions until the agency 
addresses a court remand of its Waste Confidence rule. We have 
also heard announcements two nuclear plants will close 
prematurely and there is speculation in the press that several 
others may also.
    So, it is in this context I'd like to discuss the defense-
in-depth philosophy which has been fundamental to nuclear 
safety in our country since the industry's inception. I'm sure 
we all agree it plays a vital safety role. This was a painful 
lesson for the Japanese to learn and one that was highlighted 
by the Diet (Dee-ett) report which stated: ``The defense-in-
depth concept used in other countries has still not been fully 
considered.''
    With the Atomic Energy Act, Congress endeavored to balance 
the benefits that nuclear energy brings to the general welfare 
with protection of public health and safety. I am concerned the 
Commission risks undermining this balance by shifting to an 
unlimited application of the defense-in-depth philosophy in 
reaction to the Fukushima accident.
    Defense-in-depth has, or should have, a sensible 
constraint. For example, I understand there is a three-unit 
nuclear plant here in the U.S. which currently has eight 
emergency diesel generators. These reactors need six generators 
to ensure safety in case the plant loses access to off-site 
supplies of electricity. That means this site has two redundant 
spares. In the wake of Fukushima, this site will add two more 
in a separate bunker away from the plant for a total of ten 
diesel generators.
    An unmanaged application of defense-in-depth philosophy 
would question why stop at 10? Why not have 20? Or a hundred? I 
don't know what the right number is. However, common sense and 
critical thinking should show that, at some point, there are 
diminishing safety benefits from additional generators. It 
seems to me cost-benefit analysis provides a necessary and 
sensible constraint in this situation: that safety gains should 
be significant enough to outweigh additional costs.
    Unfortunately, with the NRC staff's filtered vents 
proposal, we have exactly the opposite. The staff's 
recommendation to mandate filtered vent structures failed the 
cost-benefit test so the staff chose to justify the mandate 
based on the defense-in-depth philosophy. The staff recommended 
this mandate against the advice of the NRC's body of experts, 
the Advisory Committee on Reactor Safeguards. That Committee 
advised a more holistic approach recognizing that all plants 
are different and a one-size-fits-all mandate may create 
unintended consequences.
    As the Near-term Task Force wrote in their 2011 report 
following the Fukushima accident:
    ``...adequate protection has typically only led to 
requirements addressing beyond-design-basis concerns when they 
were found to be associated with a substantial enhancement in 
safety and JUSTIFIED IN TERMS OF COST.''
    Recommendation 1 in their report was that the Commission 
should reassess the role that the defense-in-depth philosophy 
should play. While the Commission has not yet resolved this 
policy question, agency staff nonetheless appears to be 
embedding ITS preferred approach in the filtered vents 
recommendation. I don't think the staff should attempt to set 
policy on a matter on which the Commission has not yet reached 
a conclusion.
    Furthermore, this matter was raised in our January 15th 
letter, which twenty of my colleagues and I signed, and the 
Commission's response was unsatisfactory beginning with the 
failure to answer our first question: When will the NRC conduct 
a ``gap analysis'' of the regulation differences between the 
U.S. and Japan. I expect some of my colleagues will likely 
share some additional concerns with your response. I'm 
disappointed that you didn't take your communication with 
Members of this Committee more seriously and I expect that you 
will in the future.
    I again want to thank you all for being here today and look 
forward to your testimony. I'd now like to yield to our Ranking 
Member Mr. Tonko for the purposes of an opening statement.

    Mr. Shimkus. And now I would like to yield to our ranking 
member, Mr. Tonko, for the purposes of an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, and good morning. Thank you, Chair 
Shimkus and Chair Whitfield, for holding this hearing. I thank 
Chairman Macfarlane and Commissioners Svinicki, Apostolakis, 
Magwood and Ostendorff for appearing before the subcommittees 
today.
    The work of the Nuclear Regulatory Commission is extremely 
important to the public. Congress recognized way back in 1974 
that the licensing and regulation of nuclear power and 
radioactive materials should be separate from research and 
development and promotion of the civilian nuclear industry. 
Public confidence in this technology is directly related to 
their confidence that the NRC will act to ensure the safe 
operation of nuclear power plants and the safe handling of 
nuclear materials.
    Nuclear power provides nearly 20 percent of our electricity 
nationally. If we are to continue to rely on nuclear power, we 
must maintain safe operations and we must deal with nuclear 
waste in a manner that inspires public confidence and serves 
the needs of the 104 power plants that we have across our 
Nation. It is a tall order, and one that obviously comes with 
many challenges. The tragic events in Japan that occurred at 
the Fukushima Daiichi plant were a stark reminder of how 
important safety is to this industry. To the public, there is 
no such thing as a small nuclear accident. A large one is 
devastating. I encourage the NRC to take the steps necessary to 
implement the recommendations from the review of that tragedy 
to further improve the safety of our Nation's nuclear power 
plants.
    Again, I thank you for being here this morning. I look 
forward to your testimony.
    I would like now to yield my remaining time to the ranking 
member of the Energy and Power Subcommittee, Representative 
Rush.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Tonko, for yielding. I 
want to thank the chair, and I want to thank you, Chairwoman 
Macfarlane, and all the NRC Commissioners for being here today.
    As a representative of the great State of Illinois, which 
houses more nuclear reactors than any other State in the 
country, I am eager to hear about the progress that the NRC is 
making in regards to recommendations that the Near-Term Task 
Force released back in July 2011 following the nuclear disaster 
at Fukushima. My constituents want to be assured that the NRC 
adopts commonsense protocols for both mitigating risk of a 
nuclear disaster as well as procedures to safeguard the public 
in the event that a disaster occurs. Safety is my primary 
concern, and I would support the implementation of a 
performance-based approach that will allow licensees to employ 
a combination of systems to address performance standards and 
avoid widespread disaster in the case of emergencies.
    Another issue of great importance to me is the NRC's work 
with Historically Black Colleges and Universities, HBCUs. In 
May 2012, the NRC was honored as one of the government agencies 
that was most supportive of the engineering departments of 
HBCUs, and I look forward to hearing more about the types of 
programs and forms of support the NRC provides to these HBCU 
colleges and universities. It is in the national interest to 
make sure that we are educating all of our students to enter 
the STEM fields of science, technology, engineering and math, 
and so it is very encouraging to hear that the Nation's 
foremost nuclear authority is providing its support to help 
move our Nation forward in this effort.
    I look forward to engaging the Commissioners on these very 
important issues, and I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back the balance of his 
time. The Chair now recognizes the chairman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Certainly, oversight of federal agencies is a very 
important responsibility for this committee, especially for the 
NRC, given the broad scope of changes within the nuclear 
industry, and there are two particular issues on my mind today: 
the NRC's reactor oversight process and the impact of budget 
sequestration on the NRC.
    In 2000, the NRC's reactor oversight process was 
implemented under Chairman Richard Meserve's leadership, a 
chairman well respected on both sides of the aisle. The 
development of the process was very rigorous with the goal of 
creating an objective, measurable process that would provide an 
accurate representation of a plant's performance while 
minimizing subjectivity.
    Last year, the Palisades plant in my district spent time in 
column 3, a designation for troubled plants, which requires 
significantly increased inspections. This raised considerable 
concerns among folks in my corner of the State, concerns 
certainly that I shared. Entergy needed to do better, and they 
outlined their comprehensive and methodical plans for returning 
Palisades to the high level of safety that all plants should 
have.
    This past November, the NRC returned Palisades back to 
column 1, the best column, which normally would signify the 
NRC's conclusion that the plant is operating safely and should 
give the local communities confidence that the plant is back on 
the straight and narrow. However, when the NRC made the 
determination to move Palisades back into column 1, the agency 
did so begrudgingly, I believe, and qualified the rating, 
indicating that it would continue to apply increased oversight 
beyond the normal inspections for column 1. That does send a 
mixed message to the community: does Palisades belong in column 
1 or not, and I would like some clarification on that.
    In closing, I would like to echo the disappointment 
expressed by Chairman Shimkus regarding the NRC's response to 
our January letter. We did ask very detailed questions, yet the 
response was somewhat dismissive, even contradicting the 
Japanese Diet report' conclusion that they had not fully 
considered the defense-in-depth philosophy as Chairman Shimkus 
mentioned. You wrote that you would give us careful 
consideration but the answers were not quite where we would 
like them to be.
    So with that, I would yield back the balance of my time to 
Chairman Whitfield.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Oversight of federal agencies is an important 
responsibility for this committee, especially for the Nuclear 
Regulatory Commission given the broad scope of changes within 
the nuclear industry. There are two particular issues on my 
mind today: The NRC's Reactor Oversight Process and the impact 
of budget sequestration on the NRC.
    In 2000, the NRC's Reactor Oversight Process was 
implemented under Chairman Richard Meserve's leadership, a 
chairman well respected on both sides of the aisle. The 
development of the process was very rigorous with the goal of 
creating an objective, measurable process that would provide an 
accurate representation of a plant's performance while 
minimizing subjectivity.
    Last year, the Palisades plant in my district spent time in 
``Column 3,'' a designation for troubled plants which requires 
significantly increased inspections. This raised considerable 
concerns among folks in Southwest Michigan--concerns that I 
shared. Entergy needed to do better, and they outlined their 
comprehensive and methodical plans for returning Palisades to 
the high level of safety that it should have.
    This past November, the NRC returned Palisades to Column 1, 
the best column, which normally would signify the NRC's 
conclusion that the plant is operating safely and should give 
the local communities confidence that the plant is back on the 
straight and narrow. However, when the NRC made the 
determination to move Palisades back into Column 1, the agency 
did so begrudgingly and qualified the rating, indicating that 
it would continue to apply increased oversight beyond the 
normal inspections for Column 1. This sends a mixed message to 
the community--does Palisades belong in Column 1 or not. I 
would like some clarification on that.
    In closing, I'd like to echo the disappointment expressed 
by Chairman Shimkus regarding the NRC's response to our January 
15th letter. We asked very detailed questions, yet the response 
came off as dismissive, even contradicting the Japanese Diet 
(pronounced DIE-it) report's own conclusion that they had not 
fully considered the defense-in-depth philosophy as Chairman 
Shimkus mentioned. You wrote that you would give our views 
``careful consideration'' but the answers provided to our 
questions fall short. These are serious questions that deserve 
thoughtful and thorough deliberation.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Mr. Whitfield. Thank you very much, and I want to certainly 
welcome all the Commissioners here today. We appreciate the 
important work that you do and recognize the importance of 
nuclear energy for providing energy in our country.
    The NRC Near-Term Task Force report, which was issued last 
summer, highlighted some lessons learned from the Three Mile 
Island accident. Some of the actions taken by the NRC after 
Three Mile Island were not subject to a structured review and 
were subsequently found not to be of substantial safety benefit 
and were removed.
    I am concerned that the NRC's consideration of post-
Fukushima issues is not as structured and integrated as it 
should be. I would like to call your attention to four items 
which appear to be interrelated but which the Commission is 
considering individually, independent of each other. Number 
one: the Near-term Task Force Recommendation number one 
concerning the defense-in-depth philosophy, which Chairman 
Shimkus mentioned; number two, the Severe Accident Management 
Order the Commission issued a year ago; number three, the 
filtered-vents proposal about which we wrote to you; then 
number four, the economic consequences proposal regarding the 
potential for land contamination.
    From looking at records of the Commission, it is quite 
clear that many statements have been issued about how these 
issues are related to each other and yet it seems that the 
Commission is determined to treat each one separately in what 
some people say is an unstructured process.
    The Commission's 2011 decision to prioritize its work into 
three tiers was a good start but time has passed and there is a 
great deal more information that has surfaced since then. It 
seems like a more integrated approach to post-Fukushima issues 
is long overdue. So I hope we have an opportunity to discuss 
that some this morning, and I would yield back the balance of 
my time.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    I also want to thank you for coming here today. In our last 
hearing with the Commission, I expressed my optimism and hope 
that Chairman Macfarlane would restore collegiality to the 
Commission. She appears to be doing a better job than her 
predecessor and I think we are all very grateful for that.
    When you folks were here last summer, I urged all of you to 
remember that the costs of regulatory changes are ultimately 
born by consumers who are struggling to fill their gas tanks 
and pay their bills. This concern is now joined by a concern 
for those who will lose their jobs at plants that may close 
prematurely.
    I stated my firm belief that we need to ensure that any 
additional regulatory costs are justified by real safety 
benefits. Those concerns are just as valid today, especially 
given that the Commission is considering a recommendation from 
the staff that is NOT cost-justified, as Chairman Shimkus just 
mentioned.
    Last summer, I also referenced a cautionary comment from 
the NRC Near-term Task Force report regarding lessons learned 
from the Three Mile Island accident: ``...some of the actions 
taken by the NRC after Three Mile Island were not subjected to 
a STRUCTURED review and were subsequently not found to be of 
substantial safety benefit and were removed.''
    I am concerned that the NRC's consideration of post-
Fukushima issues is not as structured and integrated as it 
should be. I'd like to call your attention to four items which 
appear to be inter-related but which the Commission is 
considering individually, independent of the others:
    <bullet> The Near-term Task Force Recommendation #1 
concerning the defense-in-depth philosophy which Chairman 
Shimkus mentioned;
    <bullet> The severe accident management order the 
Commission issued a year ago;
    <bullet> The filtered vents proposal about which we wrote 
to you; and
    <bullet> The Economic Consequences proposal regarding the 
potential for land contamination.
    Clearly the recommendation to mandate filtered vents is 
propelled by concerns about land contamination that might 
result from a severe accident. In fact, in the Commission's 
January meeting on filtered vents, there were 43 statements 
about how the filtered vents issue is linked to the other items 
I just mentioned. The transcript for the Commission's meeting 
on Economic Consequences last September tells a similar story: 
49 statements on how it is linked to these other issues. 
Altogether, we reviewed transcripts from 4 Commission meetings 
since August on these topics and found 145 references 
indicating how these issues are linked.
    I simply don't understand why, with these issues so 
intertwined, that the Commission would consider each one 
separately, in such an unstructured process. The Commission's 
2011 decision to prioritize its work into three tiers was a 
good start. But time has passed and there is a great deal more 
information that has surfaced since then. It seems like a more 
integrated approach to post-Fukushima issues is long overdue. 
So I hope we get some clear explanations this morning.

    Mr. Shimkus. The gentleman yields back the balance of his 
time. Without objection, I would like to be able to allow Mr. 
Waxman when he arrives 5 minutes to do his opening statement, 
and we will move right into questions until he arrives. So I 
would like to recognize myself for the first 5 minutes--oh, we 
will go to the Commission. We are so anxious to talk to you 
all, so Chairman, you are recognized 5 minutes for your opening 
statement.

STATEMENTS OF ALLISON MACFARLANE, CHAIRMAN, NUCLEAR REGULATORY 
   COMMISSION; HON. KRISTINE L. SVINICKI, COMMISSIONER; HON. 
GEORGE APOSTOLAKIS, COMMISSIONER; HON. WILLIAM D. MAGWOOD, IV., 
   COMMISSIONER; AND HON. WILLIAM C. OSTENDORFF, COMMISSIONER

                STATEMENT OF ALLISON MACFARLANE

    Ms. Macfarlane. Thank you, Chairman Shimkus. Good morning. 
Chairman Whitfield, Ranking Member Rush, Chairman Shimkus, 
Ranking Member Tonko and distinguished members of the 
subcommittees, on behalf of the Commission, I appreciate the 
opportunity to appear before you to discuss policy and 
governance at the NRC.
    When the Commission appeared before you last on July 24, 
2012, I pledged to work closely with my fellow Commissioners 
and to approach my job as Chairman in a collaborative and 
collegial manner. Over the past 7 months, we have developed a 
very productive, respectful and collegial working relationship. 
In my tenure, I have also gained an even greater appreciation 
of the expertise of the NRC staff who carry out the mission of 
ensuring the safe and secure use of radioactive materials and 
protecting public health and safety and the environment. I 
believe the NRC is operating very well and is fulfilling its 
mandate. I am pleased with the NRC's commitment to use 
operating experience and insights to continuously improve and 
remain a strong and effective regulator.
    As we approach the second anniversary of the great Tohoku 
earthquake and the subsequent tsunami in Japan, I would like to 
share my personal impressions from a recent visit to the 
Fukushima Daiichi site. I was struck by the deserted villages, 
abandoned roads and rail lines that we passed on the drive to 
the plant. More than 160,000 people today are displaced from 
their homes there, and the site itself is scattered with 
twisted metal and debris from the force of hydrogen explosions 
in the reactor buildings as well as the tsunami itself. While 
the Japanese are diligently working to clean up and 
decommission the site, it will take them many decades to 
complete.
    The NRC continues its work to apply lessons from Fukushima 
to the regulation of NRC-licensed nuclear facilities. You may 
recall that the NRC identified a series of recommendations that 
were subsequently prioritized in three categories or tiers. The 
NRC has already taken many actions on the near-term priorities 
and is now turning its attention to long-term actions. We are 
actively exchanging lessons learned with the international 
community and maintaining a high level of open collaboration 
with the industry and public.
    Throughout this process, the agency remains determined to 
ensure that the regulatory actions stemming from this review do 
not become a distraction from day-to-day safe plant operations. 
The NRC has approved license renewals for 73 reactors and 
continues to review additional applications. However, two 
reactors that had planned to operate an additional 20 years 
have recently announced their intention to permanently close 
due to economic factors. In the months and years ahead, the NRC 
will adjust our oversight from ensuring these reactors operate 
safely to ensuring they will be decommissioned safely.
    Overall, the U.S. reactor fleet is performing well. There 
are a few reactors that have had significant performance 
problems, which the NRC is addressing in accordance with its 
regulatory procedures. Browns Ferry Unit 1 continues to address 
equipment problems. Fort Calhoun remains shut down as it 
addresses problems stemming from an inadequate flood strategy 
and a fire. And the San Onofre Nuclear Generating Station has 
been shut down for more than a year due to unexpected 
degradation of the plant's replacement steam generators. The 
NRC will not allow any of our licensed facilities to operate 
unless we are satisfied that they can do so safely.
    Since the NRC issued the first combined operating licenses 
last year for new reactors at the Vogtle and Summer sites in 
Georgia and South Carolina, construction has begun. Although 
there has been significant progress at both sites, there have 
also been some delays due to design implementation and 
fabrication issues. We anticipate that all necessary license 
amendments will be issued by the end of this week, which will 
permit both sides to begin pouring first nuclear concrete.
    Among other activities in the licensing and regulation of 
radioactive materials, the NRC is preparing to implement 
construction and operating inspection programs for two newly 
licensed facilities: a uranium laser enrichment facility and 
the depleted uranium deconversion facility. We have also 
revised our regulations for the physical protection of spent 
fuel transportation and are preparing to publish a new role to 
expand security measures for the physical protection of 
category 1 and 2 byproduct material. The NRC staff continues to 
make progress in addressing the issues cited in the Court of 
Appeals decision on waste confidence. Our work is already well 
underway and on schedule for completion by September 2014. The 
Commission has directed that all affected license application 
review activities will continue but the agency will not issue 
final licenses dependent upon the waste confidence decision 
until the court's remand is addressed. The agency is actively 
engaging the public in the process.
    The NRC continues to make international cooperation a 
priority with active involvement in a variety of bilateral and 
multilateral initiatives. I recently assumed the chairmanship 
of the Multinational Design Evaluation Program, an organization 
that strives to leverage the knowledge and resources of 
regulators to improve the design reviews of new commercial 
power reactors. In the next several months, the NRC will 
continue its focus on these and other important issues.
    I am proud of our accomplishments and confident that we 
will address the challenges ahead with the same high-quality 
work. I thank you for the opportunity to appear before you and 
would be happy to answer your questions.
    [The prepared statement of Ms. Macfarlane follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. Thank you, Chairman.
    Now I would like to turn to the ranking member of the full 
committee, Mr. Waxman, for his 5-minute opening statement. Then 
we will turn back to the Commissioners for your hopefully 2-
minute opening statements.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
begin by welcoming Dr. Allison Macfarlane, the Chairman of the 
Nuclear Regulatory Commission, and her colleagues on the 
Commission. Thank you all for being here today.
    By all accounts, Chairman Macfarlane has ushered in a new 
era of collegiality at the Commission. I commend her for her 
leadership.
    The Commission is grappling with a number of important 
matters that deserve our attention.
    In California, the San Onofre Nuclear Generating Station 
has been shut down for more than a year due to serious problems 
with the plant's brand-new steam generators. The generators 
cost California ratepayers $670 million. This expense was 
large, but the new equipment was supposed to last for decades. 
Two of the steam generators did not even last a year.
    Southern California Edison has requested permission to 
restart one of the plant's two reactors. The Commission has an 
obligation to ensure that the reactor could operate safely 
before it is allowed to restart, and California residents are 
counting on the Commission to do its job carefully and with 
safety as the first priority.
    But the Commission should also look at its own actions to 
understand why it did not detect the design and manufacturing 
flaws in these steam generators before they were turned on. If 
the NRC had detected these problems before the generators were 
installed, California ratepayers could have saved hundreds of 
millions of dollars.
    The Commission also continues to address the safety gaps 
revealed by the Fukushima nuclear accident in Japan, which 
happened almost 2 years ago. Last year, the Commission issued 
three orders to U.S. commercial nuclear reactors to enhance 
safety in the wake of the Fukushima disaster. Today is the 
deadline for operators to submit their plans for implementing 
these orders. Nuclear plant operators have until the end of 
2016 to fully implement their plans to increase safety. It is 
important that this safety deadline does not slip as others 
have in the past.
    A major problem at Fukushima was that hydrogen gas built up 
in the reactor and eventually exploded when the pressure could 
not be released. One of the Commission's post-Fukushima orders 
requires reactors similar to the type used at Fukushima to 
install pressure-venting systems that operate reliably in 
severe accident conditions. That is a commonsense improvement, 
and I commend the Commission for requiring that step.
    The Commission's technical experts recently recommended 
that the Commission go a step further to require these reactors 
to install filters on the vents in order to reduce the amount 
of radioactive material released with any vented gases. The NRC 
staff conducted a full cost-benefit analysis and concluded that 
this safety precaution would be amply justified. Safety should 
be the Commission's top priority, and I urge the Commission to 
approve the NRC staff's recommendation to require filtered 
vents as soon as possible.
    I was pleased to hear Chairman Macfarlane's testimony. I am 
looking forward to the comments of her colleagues and for the 
opportunity to ask questions about these issues and the other 
significant safety issues pending before the Commission.
    Thank you, Mr. Chairman. I yield back the time.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    I want to begin by welcoming Dr. Allison Macfarlane, the 
chairman of the Nuclear Regulatory Commission (NRC), and her 
colleagues on the Commission. Thank you for being here today.
    By all accounts, Chairman Macfarlane has ushered in a new 
era of collegiality at the Commission. I commend her for her 
leadership.
    The Commission is grappling with a number of important 
matters that deserve our attention.
    In California, the San Onofre Nuclear Generating Station 
has been shut down for more than a year due to serious problems 
with the plant's brand new steam generators. The generators 
cost California ratepayers $670 million. This expense was 
large, but the new equipment was supposed to last for decades. 
Two of the steam generators did not even last a year.
    Southern California Edison has requested permission to 
restart one of the plant's two reactors. The Commission has an 
obligation to ensure that the reactor could operate safely 
before it is allowed to restart, and California residents are 
counting on the Commission to do its job carefully and with 
safety as the first priority.
    But the Commission should also look at its own actions to 
understand why it did not detect the design and manufacturing 
flaws in these steam generators before they were turned on. If 
the NRC had detected these problems before the generators were 
installed, California ratepayers could have saved hundreds of 
millions of dollars.
    The Commission also continues to address the safety gaps 
revealed by the Fukushima nuclear accident in Japan, which 
happened almost two years ago.
    Last year, the Commission issued three orders to U.S. 
commercial nuclear reactors to enhance safety in the wake of 
the Fukushima disaster. Today is the deadline for operators to 
submit their plans for implementing these orders. Nuclear plant 
operators have until the end of 2016 to fully implement their 
plans to increase safety. It is important that this safety 
deadline does not slip as others have in the past.
    A major problem at Fukushima was that hydrogen gas built up 
in the reactor and eventually exploded when the pressure could 
not be released. One of the Commission's post-Fukushima orders 
requires reactors similar to the type used at Fukushima to 
install pressure venting systems that operate reliably in 
severe accident conditions. That's a commonsense improvement 
and I commend the Commission for requiring that step.
    The Commission's technical experts recently recommended 
that the Commission go a step further to require these reactors 
to install filters on the vents in order to reduce the amount 
of radioactive material released with any vented gases. The NRC 
staff conducted a full cost-benefit analysis and concluded that 
this safety precaution would be amply justified. Safety should 
be the Commission's top priority, and I urge the Commission to 
approve the NRC staff's recommendation to require filtered 
vents as soon as possible.
    I look forward to hearing the views of Chairman Macfarlane 
and her fellow commissioners about these issues and the other 
significant safety issues pending before the Commission.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes Commissioner Svinicki for 2 
minutes.

                 STATEMENT OF KRISTINE SVINICKI

    Ms. Svinicki. Thank you, Chairman Whitfield, Ranking Member 
Rush, Chairman Shimkus, Ranking Member Tonko, Chairman Upton 
and distinguished members of the subcommittees for the 
opportunity to appear before you today at this oversight 
hearing to examine NRC policy and governance.
    Since the Commission appeared before you last summer, NRC 
has continued its important and diverse activities related to 
oversight and licensing of nuclear power plants, research, test 
and training reactors, nuclear fuel cycle facilities, medical, 
industrial and academic uses of radioactive materials, and the 
transport, storage and disposal of radioactive materials and 
waste. Of these many diverse responsibilities, I will highlight 
two of current focus.
    The NRC continues to oversee industry compliance with the 
cybersecurity regulations that NRC put in place in 2009 to 
protect critical digital assets at nuclear facilities. Working 
cooperatively with the Federal Energy Regulatory Commission, 
the North American Electric Reliability Corporation, the 
Department of Homeland Security and other organizations, we 
continue to monitor and help combat the cyber threats to our 
Nation.
    In the area of small modular reactors, the NRC continues 
its work to identify and resolve policy and licensing issues 
related to adapting our regulatory framework, which was 
developed for large light water reactors, to the diverse 
designs and approaches put forth by the small modular reactor 
community of developers. NRC policy encourages early discussion 
prior to submission of a license application between NRC agency 
staff and potential applicants in public meetings. These 
discussions enable the NRC staff to identify and resolve 
potential issues early in the process. These efforts will 
continue and will take more specific form as the U.S. 
Department of Energy advances its SMR program activities this 
year and next.
    All of these activities are achieved through the committed 
efforts of the women and men of the NRC who work to advance the 
NRC's mission of ensuring adequate protection of public health 
and safety and promoting the common defense and security day in 
and day out. I am grateful to them for the work they do.
    I appreciate the opportunity to appear and look forward to 
your questions. Thank you.
    Mr. Shimkus. Thank you, and now the Chair recognizes 
Commissioner Apostolakis for 2 minutes.

                STATEMENT OF GEORGE APOSTOLAKIS

    Mr. Apostolakis. Chairman Whitfield, Ranking Member Rush 
and members of the subcommittees, good morning.
    At the 2-year anniversary of the accident at Fukushima, the 
NRC and the nuclear industry have made significant progress in 
addressing lessons learned. Decisions on nuclear safety matters 
should not be made without careful deliberation. Such 
deliberation includes the technical evaluations by NRC senior 
management, the views of the statutory advisory committee in 
regard to safeguards, and public interactions with external 
stakeholders.
    As a result of this open and transparent process, the 
technical basis for implementing the Near-Term Task Force 
recommendations was strengthened. Additional technical issues 
for consideration were identified in such areas as filtration 
of containment vents, loss of the ultimate heat sink, and the 
expedited transfer of spent fuel to dry casks to cask storage.
    The process for reaching post-Fukushima decisions has been 
and continues to be methodical and transparent. This decision-
making process has highlighted the potential tension between 
implementing new safety enhancements and maintaining regulatory 
stability. Our own Principles of Good Regulation state that NRC 
regulation should be perceived to be reliable and not 
unjustifiably in a state of transition. The agency will 
continue to face the challenge of striking the right balance 
between safety enhancements and regulatory stability.
    In closing, I note that there are many other safety 
improvements being made at nuclear power plants that are not 
related to Fukushima. These also require significant resources 
to implement. It is a challenge to ensure that additional new 
requirements do not adversely affect the implementation of more 
safety significant activities or our licensees' ability to 
maintain their focus on day-to-day safe operation. Thank you.
    Mr. Shimkus. Thank you, Commissioner.
    Now, Commissioner Magwood, you are recognized for 2 
minutes.

              STATEMENT OF WILLIAM D. MAGWOOD, IV

    Mr. Magwood. Thank you, and good morning. Chairman Shimkus, 
Ranking Member Tonko, Chairman Whitfield and Ranking Member 
Rush, Chairman Upton and distinguished members of the 
subcommittees, it is a pleasure to appear before you today to 
discuss the activities of the Nuclear Regulatory Commission.
    Two years after the massive earthquake struck northeastern 
Japan that precipitated the disaster at the Fukushima plant, 
responding to these important lessons of that event remains a 
very high priority for our agency. While we continue to work 
with our Japanese friends and the international community to 
study the sequence of events at Fukushima to mine this tragedy 
for information that will help prevent future disasters, we 
have already learned the highest priority lessons.
    We understand that we must change the way we think about 
extreme events, what we in our business call beyond-design-
basis events. These events are rare but can result in very high 
consequences. Fukushima has led to new thinking regarding how 
U.S. facilities should prepare for these occurrences.
    From Fukushima, we understand it is possible for a nuclear 
plant to experience the loss of both offsite power and onsite 
emergency diesel generators as a result of a single event. We 
have also seen the unanticipated challenges associated with the 
failure of multiple reactors at a single site.
    This Commission has led our agency to aggressively respond 
to these new learnings. We have issued orders to address these 
issues and many more. I believe that the great majority of risk 
revealed in the aftermath of Fukushima has been addressed by 
the actions we have taken thus far. Nevertheless, more work 
remains both in implementing successfully the decisions we have 
already made, and to address remaining important issues such as 
the improvements that can be considered regarding containment 
of venting systems for Mark I and Mark II boiling-water 
reactors.
    My colleagues and I have had many spirited, open 
discussions and debates over these matters, and we have all 
spent countless hours with the excellent NRC staff as we work 
to find the best solutions to these difficult issues and assure 
the health and safety of the American people. Meanwhile, the 
regular work of our agency continues. As our work continues, we 
appreciate the strong interest that you have demonstrated in 
our activities and the ongoing efforts that we have in becoming 
a stronger, more effective and more open nuclear safety 
regulator.
    Thank you, and I look forward to your questions.
    Mr. Shimkus. Thank you.
    The Chair now recognizes Commissioner Ostendorff for 2 
minutes.

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Chairman Shimkus, Chairman Whitfield, 
Ranking Member Rush, thank you for the chance to be here today.
    As we approach the 2-year anniversary of the Fukushima 
Daiichi event, I think that we are making very good progress at 
our agency in implementing previous actions in response and in 
looking at what needs to be done and what does not need to be 
done.
    Along with all my colleagues here at this table, I know 
that we take seriously our responsibilities in making sure that 
we do not impose additional requirements without there being a 
strong justification. I firmly believe as a Commissioner that 
we are doing just that.
    With respect to other work, safety performance of our 
licensees remains very good. When deficiencies are identified, 
we enhance our level of oversight and we ensure appropriate 
corrective actions are taken.
    We are also effectively providing construction oversight of 
new reactors in Georgia and in South Carolina and are promptly 
addressing the waste confidence remand from the D.C. Circuit 
Court of Appeals.
    I appreciate this committee's oversight role and I look 
forward to your questions.
    Mr. Shimkus. Thank you. You get the prize, Commissioner 
Ostendorff. I would like to now begin our opening round of 
questions. I will recognize myself for the first 5 minutes.
    As you all know, we are still waiting for a decision from 
the D.C. Circuit Court on whether the NRC is legally bound to 
resume consideration of the Yucca Mountain license application. 
Chairman Macfarlane, last July when you last testified before 
this committee, I asked you if you would honor the court's 
decision, and you said, and I quote, ``Absolutely.'' Do you 
still stand by that statement?
    Ms. Macfarlane. Absolutely.
    Mr. Shimkus. To the rest of the Commissioners, will you 
also commit to honor the court's decision?
    Ms. Svinicki. Yes, I do.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Shimkus. Our investigation last year uncovered an 
estimate by NRC staff indicating that the Yucca Mountain Safety 
Evaluation Report could be completed in 6 to 8 months. The 
Safety Evaluation Report would document the NRC's review and 
conclusions regarding the license application. In answers to 
questions following our last hearing, the NRC stated the cost 
would be approximately $6.5 million. The NRC's Performance and 
Accountability Report issued 2 weeks ago states that the NRC 
currently has $10.4 million in unobligated balances from the 
Nuclear Waste Fund for the purpose of reviewing the license 
application, and this is to all five Commissioners: Having 
committed to honor the court's decision, if the court orders 
the NRC to resume its review of the license application, will 
you commit to ensuring that staff will complete the review and 
publicly release the Safety Evaluation Report in accordance 
with these time and resource estimates? Chairman?
    Ms. Macfarlane. Well, I will first wait to see what the 
court's decision is and then I will wait to see the analysis of 
the available funds.
    Mr. Shimkus. So you don't believe that you have $10.5 
million in unobligated accounts in the NRC?
    Ms. Macfarlane. We do. Whether it is released or not is 
another issue.
    Mr. Shimkus. And you don't agree that you responded in your 
last appearance here that there was $6.5 million in--well, it 
was the projected cost.
    Ms. Macfarlane. I agreed to that.
    Mr. Shimkus. And you have agreed that if the court decides 
to move forward that you as the Chairman of the Commission 
would do so?
    Ms. Macfarlane. Yes.
    Mr. Shimkus. OK. Thank you. Same question to you, 
Commissioner Svinicki?
    Ms. Svinicki. Mr. Chairman, the figures that you mentioned, 
I believe are correct. I do not know if the NRC staff would 
need to update the cost estimate for completing and issuing the 
SERs. The longer the duration of the suspension of their 
activities, it may be that reconstituting their work would have 
a higher price tag than that, but of course, any direction to 
the staff will be deliberated amongst the Commissioners. As an 
individual member of the Commission, I do believe there would 
be value in completing that work.
    Mr. Shimkus. Thank you. Commissioner Apostolakis?
    Mr. Apostolakis. I agree with Commissioner Svinicki.
    Mr. Shimkus. Great. Commissioner Magwood?
    Mr. Magwood. Yes, I would echo that as well, and also add 
that I think we also would require some additional guidance 
from Congress on that to assure we apply the money correctly, 
but with all those constraints, absolutely.
    Mr. Shimkus. And Commissioner Ostendorff?
    Mr. Ostendorff. I agree there is value in moving forward to 
complete the SERs and publicly issue those documents 
irrespective of what the long-term siting of the repository may 
be.
    Mr. Shimkus. And final question. If the court issues such 
an order, will you commit to provide this committee with 
monthly reports on the staff's progress and expenditures of 
resources?
    Ms. Macfarlane. Yes.
    Mr. Shimkus. Commissioner Svinicki?
    Ms. Svinicki. Yes.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Shimkus. Thank you very much. Now the Chair recognizes 
the gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Last March, the Commission issued three orders to United 
States commercial nuclear reactors to enhance safety in the 
wake of the Fukushima disaster. One of the orders is focusing 
on boiling-water reactors, similar to the type used in 
Fukushima. The Indian Point nuclear facility south of my 
Congressional district uses this type of reactor. NRC is 
requiring these reactors to install hydrogen venting systems 
that would be reliable and operable under emergency conditions. 
That seems like common sense, and in fact, today is the 
deadline for operators to submit their plans for implementing 
these orders to the NRC.
    Chairman Macfarlane, these reactors have until the end of 
2016, I believe, at the latest, to execute these plans. Is that 
correct?
    Ms. Macfarlane. To execute the--I believe that is correct.
    Mr. Tonko. That is more than 5 years after the Fukushima 
accident for only three orders. The post-Fukushima task force 
made many additional recommendations for how to improve reactor 
safety. Chairman Macfarlane, how long will it take, in your 
opinion, to implement all of the Fukushima task force's 
recommendations?
    Ms. Macfarlane. This is an issue that we are looking at, 
and we are trying to--we are evaluating a number of these 
recommendations going forward. As you know, we have prioritized 
them into three tiers. The first tier were the activities that 
could be conducted immediately without further study, and now 
we are evaluating the tier two and tier three activities to see 
if there is reason to go forward with them, but we are doing it 
with all due deliberation.
    Mr. Tonko. I appreciate that, but I believe it is important 
to maintain a sense of urgency in the implementation of the 
lessons learned from Fukushima. As time passes, we tend to lose 
focus, but the hazards don't become any less real over the 
course of time.
    I want to also ask you about another issue that seems like 
common sense, and that is whether NRC should require the 
installation of filters on these hydrogen vents in order to 
reduce the amount of radiation released into the outside air in 
the event of a severe accident. NRC's technical experts 
recommended that the Commission require filtered vents. Some 
members of this committee have raised concerns that this 
requirement would be too costly. Chairman Macfarlane, my 
understanding is that the NRC staff did a full cost-benefit 
analysis examining both quantitative and qualitative factors. 
Is that correct?
    Ms. Macfarlane. That is correct.
    Mr. Tonko. And there is nothing unusual about looking at 
qualitative factors. Is that correct?
    Ms. Macfarlane. That is correct.
    Mr. Tonko. As is consistent with NRC's guidance on cost-
benefit analyses?
    Ms. Macfarlane. Yes.
    Mr. Tonko. OK. Well, based on its analysis, NRC staff 
determined that requiring filtered vents would be cost-
justified and would indeed increase safety. Is that correct?
    Ms. Macfarlane. That is the staff's analysis.
    Mr. Tonko. I know you are currently voting on this issue.
    Ms. Macfarlane. We are.
    Mr. Tonko. And I respect that process. I believe that you 
need to work together to come to a conclusion on this issue, 
but I would encourage you to resist outside pressure to 
disregard the expert recommendations of your staff. I think it 
is imperative. I think it is important that we move forward 
having learned from the lessons of Fukushima, and it is 
important for us to maintain a sense of safety with all of our 
nuclear activity across the country.
    So with that, I thank you, and Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the chairman of the full committee, Mr. Upton, 
for 5 minutes.
    Mr. Upton. Well, again, thank you, Mr. Chairman, and I do 
appreciate, as I said in my opening statement, your particular 
concern as we all share with my particular plant in my 
district, the Palisades plant, and it is in the interest of all 
that that Palisades plant be returned to column 1, which it 
was. I appreciated you keeping us updated. And as I indicated 
in my opening statement, and you indicated as well, that you 
are going to apply increased oversight beyond the normal 
inspections for that particular facility. Can you elaborate at 
all in terms of how long that might last, what progress we have 
seen since you indicated such a number of weeks ago?
    Ms. Macfarlane. Sure. The increased oversight is a result 
of degradation in safety culture that we observed at the 
Palisades plant, and they had a few other issues but this was 
the issue that prompted the increased oversight, and we are 
going to continue with the increased oversight to ensure that 
the positive changes that we have seen at the Palisades site in 
safety culture hold, and we will continue that for a while as 
long as we are convinced that changes have permanently taken 
place at the plant, and this is completely normal and this is 
what we do with other plants. We are not singling out Palisades 
in any particular manner, and it is all moving in a very 
positive direction.
    Mr. Upton. I appreciate that, and I appreciate your 
leadership, and I just want to extend an invitation. In my 
district, I have two facilities that are literally 10 miles 
north of where I live and 10 miles south, and it would be an 
easy trip for you perhaps to come visit both on literally the 
same day, so I appreciate your leadership and I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the Energy and Air Quality 
Subcommittee, Mr. Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Chairwoman Macfarlane, I am going to switch the focus again 
from some of the nuclear-centered anxieties that are prevalent 
on this committee, and I want to focus on what I consider one 
of your strengths.
    In my opening statement, I remarked that I was pleased to 
see the NRC being honored as one of the governmental agencies 
that was most supportive of the engineering departments at 
HBCUs in 2012, and I think that is an issue that really we need 
some airing on and hearings of this type, and that is the issue 
of getting more students to go into the STEM fields so that 
they can be the engineers and scientists of the future, and I 
want to commend your agency again for its outstanding 
achievement.
    The API recently released a report that half of this 
industry will turn over in the next 7 to 10 years and it is in 
our national security interests that we make sure that we train 
young people to become scientists and engineers and that they 
have the skills and the expertise that is necessary to replace 
this aging workforce. Can you provide this committee with more 
information on programs, what forms of support the NRC provides 
to these HBCUs and do you think that these types of programs 
can be replicated at other agencies?
    Ms. Macfarlane. We can certainly provide a list in writing 
on these programs, and I think these programs are very 
important. Coming from an academic background myself, I find it 
very important and I have been getting briefed from the staff 
on all the range of programs that we have. We have some very 
important programs to not only encourage students to go into 
these fields but also to make sure there are faculty there to 
teach the students, and I think that is an important piece of 
this as well. So these are very important programs. I don't 
know if my colleagues would like to comment.
    Mr. Rush. Anybody?
    Mr. Magwood. Sure, Congressman, just a quick comment. I 
agree with Chairman Macfarlane. I think these activities are 
very important, and it is not simply programs aimed at HBCUs 
obviously. It is really the broader academic community. And NRC 
has a unique role to play because it is not just simply the 
dollars that we put into this, it is also a lot of our staff 
who are very interested in these programs and serve as 
champions for various universities across the country where 
they travel and I travel quite frequently to visit students and 
talk to students about careers in science and technology, and 
of course, particularly nuclear science and technology.
    In the area of our Minority-Serving Institutions program, I 
think the biggest portion of the program is what we would call 
capacity building, building the ability of these universities 
to compete on a more equal basis with larger universities for 
research dollars and other types of grants. So it is something 
that we are very proud of.
    Mr. Rush. Ms. Macfarlane, the NRC Principles of Good 
Regulation state, and I quote, ``Regulatory activity should be 
consistent with the degree of risk reduction they achieve. 
Where several effective alternatives are available, the option 
which minimizes the use of resources should be adopted,'' and 
``Once established, regulations should be perceived to be 
reliable and not unjustifiably in a state of transition.'' What 
specific measures do you employ to ensure that the NRC's 
regulatory process provides sufficient flexibility to satisfy 
these principles while ensuring a predictable and stable 
regulatory regime?
    Ms. Macfarlane. We operate a number of different processes 
to ensure that there is a stable regulatory regime, and we work 
closely with industry and other stakeholders to ensure that we 
are going forward and we are sensitive to issues that come up.
    Mr. Rush. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the chairman of the Energy and Air Quality 
Subcommittee, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Chairman Shimkus, and thank you 
all for your statements.
    In my opening statement, I talked about the Near-Term Task 
Force recommendation number one concerning the defense-in-depth 
philosophy, the Severe Accident Management Order, the filtered-
vents proposal, and the economic consequences proposal, and I 
noticed that after last July's hearing, Commissioner 
Ostendorff, you submitted answers to some questions we had 
submitted in which you supported an integrated, prioritized 
assessment of the Near-Term Task Force recommendations, and as 
I said in my opening statement, all of these issues seem to be 
so intertwined and yet there seems to be an effort at the 
Commission to do them independent and separate of each other. 
Would you give me your views on this issue?
    Mr. Ostendorff. Thank you very much, Chairman Whitfield, 
for the question. It is a very important question.
    My personal views on this are as follows, that there may be 
some externally who would criticize the NRC staff for the 
sequencing of these four issues that you just raised. I take a 
different view, and I will tell you that amongst the five of us 
when we meet in periodic meetings several times a month one-on-
one, we discuss this exact issue. I would fear that for us to 
go back and tell our Executive Director for Operations go back 
and sequence this in the way that you think is appropriate, 
that we would be inappropriately delegating our own policy 
decision-making authority to our staff. I think it is incumbent 
upon us as decisionmakers to take that integration and 
prioritization function on these key policy issues and deal 
with them as a Commission-level decision, not a staff decision.
    So for instance, if I could just add, in our economic 
consequences vote, and nothing is wrapped up but we have all 
had lots of discussions on this, and the filtered-vents vote, I 
think you will see when those votes are released under our 
processes, there has been significant consideration for the 
interconnection of these issues.
    Mr. Whitfield. Would any of the other Commissioners like to 
make a comment?
    Ms. Svinicki. Yes, Chairman Whitfield. I agree with 
Commissioner Ostendorff. I would add that I think since our 
responses last summer, individually and as a Commission, we are 
trying to strike a balance between, as Congressman Rush just 
read, our commitment to a principle that the entire regulatory 
framework not be unjustifiably in a state of transition and the 
need to disposition some of these measures which have been 
under evaluation. So we are attempting to integrate as well as 
we can but at the same time, if issues are held open even 
longer, we contribute to this state of transition for the 
regulatory framework. So as we discuss with each other and we 
feel we are able, if we can disposition an individual issue, we 
think that getting that stabilized is beneficial.
    Ms. Macfarlane. Let me add that I agree with both of my 
colleagues on this issue, and we have been discussing it on a 
very regular basis, but I think what we are also benefiting 
from, as the staff does more analysis, is more information to 
help us really understand all the issues that are at play and 
exactly how we can deal with the overlap or the lack of 
overlap, depending on the particular issue. So we are giving 
this due consideration, please be assured.
    Mr. Whitfield. Yes, sir?
    Mr. Apostolakis. Well, in addition to what my colleagues 
said, there is one other element that plays a role in our 
decision-making process, and that is how long it would take to 
implement one of those recommendations. Ideally and logically, 
recommendation one should be the first one to deal with, but 
recommendation one requires time, it requires rethinking of the 
regulatory system, so I don't think any one of us would want us 
to still be working on recommendation one without doing 
anything else. So there are other actions that we can take, and 
it is not an ideal situation. But again, there is this time 
pressure too, that we do want to do something, and 
recommendation one will have to wait for a while.
    Mr. Whitfield. Mr. Magwood?
    Mr. Magwood. Not to be the only one to stay silent on the 
issue, I guess I will have to make some comment. I think that 
the outcomes that we have been able to generate I think have 
been good, and that is not to say that we could not have had a 
more, I guess I should say a more coordinated approach to how 
these issues were sequenced and how we approach them, but to be 
honest, a lot of these issues have evolved a bit while we have 
been working on them. For example, we have merged some of the 
issues together so that they aren't independent decisions 
anymore. So our understanding of how to approach this has 
changed as we have gone forward. So it is easy to look 
backwards and say well, I wish we could have done it this way, 
but I think the progress we have made so far has been so 
positive that I am hesitant to be overly critical of the fact 
that I would have liked to have seen one decision come before 
another.
    Mr. Whitfield. Well, thank you all so much for talking 
about it. Thank you.
    Mr. Shimkus. The chairman's time has expired. The Chair now 
recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Chair Macfarlane, I would like to start by asking you about 
the problems with San Onofre. I mentioned it in my opening 
statement. The nuclear generating station is located near San 
Diego. In 2010 and 2011, new steam generators were placed in 
service at that plant. The project cost California ratepayers 
$670 million but the new equipment was supposed to last for 
decades. However, since January 31 of last year, both reactors 
have been shut down after a tube in one of the units' steam 
generators started leaking radioactive steam into the 
atmosphere. When you last testified before the committee, all 
five Commissioners agreed that this is a serious safety issue 
that must be corrected before the plant restarts. The operator 
of the plant, Southern California Edison, is now proposing to 
run one of the units at 70 percent of power for 5 months. I 
know that NRC staff is evaluating that proposal.
    Chairman Macfarlane, would running a plant at less than 
full power for an extended period of time normally require an 
amendment to the plant's operating license?
    Ms. Macfarlane. You know, we are in the process of 
evaluating the proposal by Southern California Edison for their 
restart, and we are also evaluating whether they understand the 
root cause of the problem with the steam generators, and let me 
assure you first of all, that we will not let the plant operate 
until we are assured that it can operate 100 percent safely.
    Mr. Waxman. But my question is--and I thank you for that 
comment--is that if they are going to run this plant at less 
than full power, don't they require an amendment to the plant's 
operating license?
    Ms. Macfarlane. I think this is in adjudicatory space right 
now and so I can't comment on that particular issue.
    Mr. Waxman. NRC didn't detect the flaws in the generators 
before they were turned on. That raises important questions. 
How did this happen? How do we make sure it doesn't happen 
again? What progress has NRC made in answering these 
outstanding questions?
    Ms. Macfarlane. The process for changing out steam 
generators at plants--and this has been done at 65 plants 
across the country, 65 reactors. We have done this over and 
over. It has been a fairly straightforward process. So the 
situation at San Onofre is somewhat unique. But nonetheless, we 
are going back and evaluating whether we have the right 
procedures in place when these big pieces of equipment are 
changed. So this is an active area.
    Mr. Waxman. And how long do you figure this is going to 
take?
    Ms. Macfarlane. That what is going to take?
    Mr. Waxman. This evaluation to know what NRC didn't do and 
should have done and will do in the future.
    Ms. Macfarlane. I am not sure, but we are in the process of 
determining lessons learned, and we will really move on with 
lessons learned once this situation with San Onofre is 
completed.
    Mr. Waxman. I want to turn to the issue of climate change 
and its impact on nuclear power plants. For years, scientists 
have warned that climate change will bring more extreme weather 
and flooding, more heat waves and droughts. We are now 
experiencing impacts consistent with these predictions.
    Chairman Macfarlane, what is NRC doing to ensure that our 
Nation's nuclear plants can operate safely not only in the 
current climate but in a warmer climate with more extreme 
weather? There are indications that climate change is already 
having a harmful impact on the nuclear sector. Last August, 
Dominion Power was forced to shut down a nuclear reactor at its 
Millstone Power Station in Connecticut because the water it 
needs to cool its reactor became too warm.
    Ms. Macfarlane. Yes, I appreciate that question. I think it 
is important for us to evaluate all external hazards including 
those that may be posed by climate change, but I think the 
Fukushima accident showed us that we need to be aware of recent 
information in terms of earthquake activity, tsunami, etc. So 
we need to be prepared for all of that, and in fact, we are 
moving in that direction right now. In the tier one activities 
from the Fukushima follow-on, we have asked plants to 
reevaluate both the seismic and flooding hazard, and the 
flooding hazard is a broad hazard. It can be from riverine 
flooding from too much rain, from coastal storm surge, as we 
saw during Hurricane Sandy, even from tsunamis. And then as we 
move through our other----
    Mr. Waxman. Are you aware of other instances of nuclear 
plants shutting down or curtailing their output as a result of 
cooling water they depend on becoming either too warm or too 
scarce?
    Ms. Macfarlane. Yes. If it becomes their licensing basis, 
they do have to shut down.
    Mr. Waxman. The Tennessee Valley Authority has to curtail 
its output of its Browns Ferry nuclear reactors in Alabama 
during the summers of 2010 and 2011 because the temperature of 
the river used for cooling waters became too hot. Exelon 
Corporation had to receive special permission from regulators 
last summer to continue to operate its Braidwood reactors in 
Illinois when their cooling water pond's temperature reached 
102 degrees.
    The impact of climate change on our Nation's nuclear power 
plants are real and happening now, and I think it is even going 
to get worse in the future. Thank you very much.
    Mr. Shimkus. Thank you. The gentleman yields back his time. 
The Chair now recognizes the chairman emeritus from the full 
committee, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, both chairmen and ranking members of 
the subcommittees for holding this hearing. It is very decent 
of the full Commission to come before the two subcommittees.
    Madam Chairwoman, several months or maybe a month ago, 
myself and 20 other members sent you a letter asking some kind 
of general policy questions. One of the questions we asked was, 
when we could expect your Commission to conduct a full 
regulatory review between the Japanese system and the United 
States system, and in spite of some of the things that you said 
to member of this committee informally and in private 
conversation, you didn't answer that question, and I was a 
little bit surprised. I didn't think that was a trick question. 
Do you want to enlighten the committee why you were so 
nonresponsive to such a basic baseline question?
    Ms. Macfarlane. Well, let me thank you for your question. I 
appreciate it, and I am sorry you found our answer wanting. And 
I will start off, and I will invite my colleagues to jump in, 
because it was a response from all of us collectively.
    Let me note first of all that operational experience is a 
foundational element in our work at the NRC, and the 
experiences at Fukushima represent experience that we need to 
learn from. We are of course aware of the situation with Japan 
and we are aware of the analyses that the Japanese have done 
themselves of the accident and their conclusions. Nonetheless, 
I think the accident pointed out a number of issues that are 
important for us to learn from. For instance, prior to the 
accident, we had not imagined that more than one reactor could 
melt down at a single facility. So it is imperative for us to 
now consider that in our regulatory analysis.
    Mr. Barton. Well, can we----
    Ms. Macfarlane. But let me invite my colleagues to comment.
    Mr. Barton. Let me just do a quick follow-up. Are you 
willing to commit to the committee right now that you will 
conduct such a full regulatory review comparison and, if so, 
when might we expect that to be given to the committee and the 
public?
    Ms. Macfarlane. I think that we are working with all due 
deliberation, very carefully considering the lessons learned 
from the Fukushima accident and I think we are----
    Mr. Barton. That is not an answer to my question. You know, 
are you going to conduct a full regulatory review or not?
    Ms. Macfarlane. I am satisfied with the analysis and the 
progress that we are making at the agency.
    Mr. Barton. So you think you have already done it even 
though you have not----
    Ms. Macfarlane. I think we have done an adequate job, and 
we are----
    Mr. Barton. Does the rest of the Commission agree with 
that? That is a stunning statement if you all agree with that.
    Ms. Svinicki. Congressman Barton, if I may, predating 
Chairman Macfarlane's service on the Commission, as an 
individual member, I did propose in a vote to my colleagues 
that the Commission direct the staff to conduct a regulatory 
comparison. This was in the months immediately succeeding the 
event in Japan. In the process of working as a deliberative 
body, my proposal was scoped down to a comparison of station 
blackout requirements. I respect the majority, so I appreciate 
that my colleagues on the Commission supported a partial 
comparison at that time.
    I continue to believe that a more complete comparison would 
be a good check for us even 2 years from the accident. It would 
allow us to be aware if we have any gaps that we have not yet 
addressed. Our direction to the staff arises from a majority 
vote.
    Mr. Barton. I am not trying to be argumentative but I don't 
see how you can decide what to do going forward if you really 
don't do a thorough review of the two regulatory systems that 
are currently in existence, or were in existence at that time.
    Mr. Shimkus. Would the gentleman yield?
    Mr. Barton. Sure.
    Mr. Shimkus. And our point is this. Collegiality is great, 
but just signing a letter because that is the majority way 
instead of you have opposition and you have a better way to do 
it, stand your ground. We want you to be collegial. We want you 
to talk. But this letter and this response is unacceptable to 
this committee, and we would ask that we get it right and that 
you give us a thorough analysis of the two systems.
    Mr. Barton. I can assure you that most members of the 
committee on both sides of the aisle are not trying to sandbag 
the Commission. In fact, I would say to the contrary, we are 
your biggest allies. So to be nonresponsive, I won't say it is 
shocking because it is not the first time we have received such 
a nonresponse from a regulatory agency but it was 
disappointing.
    With that, I yield back.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the other chairman emeritus of the full committee, 
Mr. Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and commend you for this hearing.
    A yes or no question here. This is to the chairman. As you 
know, the Yucca Mountain facility remains unused yet we are 
still generating nuclear waste at facilities across the country 
at a tremendous rate. Has the Commission considered whether the 
D.C. Circuit Court's 2012 decision and the lack of a permanent 
storage facility will affect the continuation of existing 
licenses or possibly invalidate them? Yes or no.
    Ms. Macfarlane. It won't invalidate existing licenses.
    Mr. Dingell. Now, if not, does the Commission plan to do 
so?
    Ms. Macfarlane. Sorry. Can you repeat the question?
    Mr. Dingell. If not, does the Commission plan to do so?
    Ms. Macfarlane. To invalidate existing licenses?
    Mr. Dingell. Well, what are you going to do? You have 
already said--you have given me an answer to the first part of 
the question. Does the Commission plan then to take any further 
action here such as terminating the use of the facility and 
reviewing or bringing to a halt the development of the nuclear 
power in the country?
    Ms. Macfarlane. Let me ask for clarification. Are we 
talking about----
    Mr. Dingell. Please submit the answer in written form, and 
Mr. Chairman, I will submit questions to the Commission.
    Mr. Shimkus. Without objection, all members will be able to 
submit questions to the Commission for a response.
    Mr. Dingell. Now, Madam Chairman, would you submit then 
additional information on this subject for the record to the 
committee? I will be submitting to you an appropriate letter on 
this matter.
    Now, this is again yes or no. The nuclear industry has been 
ahead of many industries in cybersecurity efforts, and the 
Commission had robust cyber regulations already in place. Do 
you believe the Commission has the necessary authority and 
resources to do all you can to defend against cybersecurity 
threats and breaches and prepare for future threats? Could you 
answer this yes or no?
    Ms. Macfarlane. Yes.
    Mr. Dingell. Again, Mr. Chairman, I will be submitting some 
questions on this point for the record.
    Madam Chairman, in addition to the nuclear facilities and 
the computer infrastructures that support them, nuclear 
facilities could potentially be disrupted through offsite 
attacks such as attacks on the mines or transportation or on 
other activities at the companies that manufacture parts. If 
reactor fuels, parts, equipment or other products are qualified 
to come on site, should the Commission have jurisdiction or 
input over cyber or physical protection before it comes on 
site? Yes or no.
    Ms. Macfarlane. We are beginning to look into this issue.
    Mr. Dingell. All right. And again, I will submit some 
questions on this.
    Madam Chairman, the Fukushima disaster obviously gave us a 
lot to think about when it comes to nuclear energy, and the 
Commission has put considerable thought into this matter. 
However, in a recent letter to the Commission, I joined my 
committee colleague, Mr. Barrow, for whom I have great respect, 
and others to express concern about a pending decision that may 
require a significant number of nuclear facilities to install 
containment filtered vents. The concern is, it may not be 
appropriate for the facilities your decision may affect due to 
the differences in affected reactors. Would a case-by-case 
evaluation provide greater certainty the best technologies are 
being used rather than a broad approach such as a filtered-vent 
proposal? Yes or no.
    Ms. Macfarlane. I am sorry. I didn't get the question.
    Mr. Dingell. Well, I am running out of time.
    Ms. Macfarlane. The filtered-vents issue is still an active 
area of voting so I am not going to talk about it right now, 
with all respect to my colleagues.
    Mr. Dingell. Thank you. I will submit again questions on 
this. In regards to other Fukushima recommendations already put 
in place, please submit for the record why these were issued as 
orders and not through the rulemaking process. Why did you 
issue these as orders and not through the rulemaking process?
    Ms. Macfarlane. Because we felt that these particular 
activities were activities that needed to be accomplished very 
quickly. Rulemaking is a very time-consuming process, and in 
response to what we now know about what can happen at reactors 
based on the Fukushima accident----
    Mr. Dingell. Now, they will be submitted rather 
imperfectly, and this is going to require further refinement by 
the Commission, is it not?
    Ms. Macfarlane. Yes. We are in rulemaking mode as well.
    Mr. Dingell. Madam Chairman, I submitted a question to you 
last year with regard to the status of an application by 
Aerotest Operations for an indirect license transfer to Nuclear 
Labyrinth. In your written response, you indicated that the 
Commission would request additional information from Aerotest. 
It is my understanding that such additional information has 
been submitted. Does the Commission anticipate requesting 
further information to Aerotest?
    Ms. Macfarlane. The information was submitted, I believe, 
this past January and it will take between 6 to 8 months for us 
to review this.
    Mr. Dingell. Would you please submit for the record your 
timeline on this?
    And Mr. Chairman, I thank you for your courtesy.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Georgia, Mr. Gingrey, for 5 
minutes.
    Mr. Gingrey. Mr. Chairman, thank you for the recognition. 
Since we are somewhat rushed for time--I think we have Floor 
votes coming up soon--let me get right to the questions, and I 
am going to go starting with Chairwoman Macfarlane, and I want 
each of the Commissioners to respond to this if you will.
    To me, it seems abundantly clear that this Administration 
unilaterally decided to ignore the Nuclear Waste Policy Act and 
indeed canceled Yucca Mountain, our Nation's only nuclear waste 
repository program. Subsequently, the Commission's waste 
confidence rule was vacated by the D.C. Circuit Court, which 
rebuked the Commission when it wrote, ``The Commission 
apparently has no long-term plan other than hoping for a 
geologic repository.'' As a result, you have a 2-year 
moratorium now on issuing new plant licenses or renewals for 
existing plants. For each of the Commissioners, again, 
Chairwoman Macfarlane, I will start with you. Wouldn't simply 
following the law and reconstituting the Yucca Mountain program 
reestablish a basis for confidence that there will be a 
disposal path for spent nuclear fuel?
    Ms. Macfarlane. This issue, the Yucca Mountain issue, is in 
the courts right now and we will await the decision of the 
courts and we will follow the law.
    Mr. Gingrey. Please.
    Ms. Svinicki. Yes, I believe that having clarity in both 
the language of the law and its implementation would allow the 
NRC to continue its licensing activities. I suppose I am just 
observing that if the national policy for disposal of these 
materials is uncertain, then these types of legal complications 
such as waste confidence arise in our licensing activities.
    Mr. Apostolakis. I agree with Chairman Macfarlane.
    Mr. Magwood. I think it is quite evident that the 
uncertainty in national policy created the situation we have 
with Waste Confidence, so I think the answer to your question 
obviously is yes, but I would also stress that I believe that 
our original Waste Confidence decision in 2010 was, in my view, 
and remains, in my view, appropriate. So I still think that was 
a good aste confidence determination at the time despite the 
fact the court didn't agree with me on that.
    Mr. Ostendorff. Congressman, I agree with Commissioner 
Magwood. I voted on that waste confidence decision when I first 
got to the Commission along with other colleagues here. I 
believe that we recognized it is the Department of Energy's 
responsibility under the Nuclear Waste Policy Act to establish 
a repository. We had good faith that they would follow that 
law. The law should be followed or amended.
    Mr. Gingrey. Mr. Chairman, I have a list of the licensing 
actions subject to the moratorium issued by the Commission. 
This is the list, Mr. Chairman, and I would like unanimous 
consent that this document be included in our record.
    Mr. Shimkus. Is there objection? Hearing none, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Gingrey. Mr. Chairman, thank you.
    On the third page of this document, listed are two 
independent spent fuel storage installations. That is a fancy 
word for interim storage, of which we have 68, as I understand 
it, across the country, 68 different interim storage 
facilities. So there are two that can't get their existing 
license renewed because of this waste confidence moratorium. 
There are some individuals that probably hope that interim 
storage will fix the waste confidence problem, but that looks 
like a catch-22 to me. Can each of you comment, again, starting 
with the chairwoman, can each of you comment on how interim 
storage can solve waste confidence if you cannot license it 
because of the moratorium?
    Ms. Macfarlane. First of all, let me point out that the 
resolving of the waste problems is the purview of the Congress 
and the Administration and not the Nuclear Regulatory 
Commission. Our job is to ensure that any interim storage 
facilities, any repositories, if so deemed by law, if that is 
our role, then we----
    Mr. Shimkus. If the gentleman would yield, it is the law of 
the land, so just for the record, I think no one in the basic 
reading of the law would say that Yucca Mountain is not the law 
of the land.
    Ms. Macfarlane. Yes, I am not trying to say that Yucca 
Mountain is not the law of the land. I am just clarifying our 
role as regulators.
    Mr. Gingrey. Why don't we move along pretty quickly? I am 
running out of time and I would like to hear from each one of 
the Commissioners on this as well.
    Ms. Svinicki. Congressman, I would only observe that the 
Commission, I believe, has crafted a response to the adverse 
court decision, which is not dependent on legislative action. 
We have directed our staff to remedy and rehabilitate both the 
rulemaking and the environmental impact statement that the 
court found lacking. Once that activity is complete, our 
ability to issue licenses and the legal underpinning for that 
will be restored.
    Mr. Apostolakis. I agree.
    Mr. Magwood. Yes, I agree with Commissioner Svinicki.
    Mr. Ostendorff. I also agree.
    Mr. Gingrey. Mr. Chairman, my time is expired. I yield 
back. Thank you.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentlelady from California, Ms. Capps, for 5 
minutes.
    Mrs. Capps. Thank you, Mr. Chairman.
    Thank you all for your testimony, and Chairwoman 
Macfarlane, as we discussed before, Diablo Canyon Power Plant 
is located in my Congressional district. Diablo Canyon is the 
largest private employer in the area. PG&E, which operates the 
plant, does a lot of great work. I visited there several times 
over the years and I want to thank you for taking the time to 
visit the plant earlier this year.
    Now, we have known for a long time that this nuclear plants 
sits on the Hosgri earthquake fault. But in 2008, the U.S. 
Geological Survey discovered a new fault called the Shoreline 
fault. The Energy Commission recommended and our State PUC 
directed that the utility conduct independent peer-reviewed 
advanced seismic studies prior to applying for relicensing. As 
you know, PG&E asked to have the relicensing request paused 
pending completion of these studies. The NRC granted their 
request, and I supported that action.
    PG&E came up with a plan for the studies but California's 
Coastal Commission rejected it last year due to environmental 
concerns. I was similarly concerned about these impacts on 
marine life, which is why I supported making it limited pilot 
program. But the health and safety of my constituents is my top 
priority, and I strongly believe that additional study of the 
fault is needed before the relicensing process can move 
forward. While I understand this effort has been driven by the 
State, I would hope the NRC would also want to have the best, 
most up-to-date information about this fault.
    Chairwoman Macfarlane, do you also agree that having 
additional independent data on the Shoreline fault would be 
helpful? And I would appreciate it if you just say yes or no.
    Ms. Macfarlane. Well, additional information can always be 
helpful but we can operate with the information that we have.
    Mrs. Capps. But you do agree that more information is a 
good thing?
    Ms. Macfarlane. I agree in general that more information is 
a good thing.
    Mrs. Capps. Last October, the NRC published a research 
information letter claiming that Diablo Canyon is seismically 
safe, yet there are other scientific studies that seem to 
conflict with the NRC's report, and I am holding up one. USGS 
seismologist Dr. Jeanne Hardebeck, who discovered the Shoreline 
fault, just published an article in the peer-reviewed Bulletin 
of Seismology Society of America which says, and this is a 
quote: ``Much is unknown about the Shoreline fault.'' This 
raises concerns for me and my constituents that there are still 
unanswered questions about the seismic situation. So Chairwoman 
Macfarlane, how can we ensure that these questions and concerns 
are properly addressed?
    Ms. Macfarlane. Well, fortunately, right now there is an 
ongoing process. There is a committee called the Senior Seismic 
Hazard Assessment Committee that is actively evaluating the 
seismic situation at Diablo Canyon and they are in the middle 
of their process. We are observing this process and we are 
looking to see what the outcome is.
    Mrs. Capps. And the fact remains that another federal 
scientist in a peer-reviewed study says more information is 
needed. So we clearly need to figure this out. I think we can 
agree that every angle must be thoroughly examined. NRC 
analysis needs to incorporate independent, concrete data that 
can be tested against those of seismic experts like Dr. 
Hardebeck. I think it makes sense to have the best eyes and 
minds in the country working together looking at these seismic 
issues because, actually, first and foremost, this is about 
safety. The NRC has the responsibility to make sure that Diablo 
Canyon is as safe as it can be today but also in the future. 
And I want the record to note that Diablo Canyon and the NRC 
have more than a decade to make these decisions because these 
licenses don't expire until over a decade from now, so there is 
no rush. We must work together to find a responsible way to 
gather and consider the additional data before relicensing 
moves forward.
    Chairwoman Macfarlane, I hope you share this commitment, 
and I look forward to working with the NRC to ensure that this 
process is done right. I do have some additional questions for 
the Chairwoman and for other members of the panel but I am 
going to submit those for the record, and I look forward to 
their response. I do have 45 seconds left and I want to know if 
there is another response that you would like to give now, or 
any of the other members of the Commission about this very 
urgent need at the nuclear facility in my Congressional 
district.
    Ms. Macfarlane. I think it is important that we make sure 
that these plants can operate safety, I agree with you, but I 
will offer my colleagues an option to comment.
    Mrs. Capps. All right. I yield back.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
recognizes the gentleman from Nebraska, Mr. Terry, for 5 
minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    Chairwoman Macfarlane, I represent Fort Calhoun, and you 
did mention Fort Calhoun in your written statement, so I want 
to follow up and ask a specific question regarding the NRC's 
relationship with the folks at Fort Calhoun and Omaha Public 
Power. I meet with them fairly regularly on the status of Fort 
Calhoun. I don't meet with you regularly on it. My question as 
a layman, reading the newspaper articles and hearing about 
their continuous meetings, what I am concerned about is, it 
seems about every 6, 7 months, the NRC issues a new list of to-
do things for that plant before it could reopen. So it appears 
to me as a layperson that the NRC may not have all of its 
organization skills applied here in the sense that it just 
seems like they get really close to being able to reopen and 
then all of a sudden they get this new list. Why and how does 
that happen?
    Ms. Macfarlane. I think we are working deliberately again, 
carefully with Fort Calhoun, and as you know, there were a 
number of issues that arose at the site, I think it was in 2011 
, in the summer of 2011, first the flooding issue and then a 
fire.
    Mr. Terry. And the fire.
    Ms. Macfarlane. Right, and then there were a number of 
significant safety-culture issues. As you know, Omaha Power 
Public District has now contracted with Exelon to operate the 
site, so it is a matter of getting those Exelon folks in, 
reestablishing stability at the site and addressing the issues 
that exist.
    Mr. Terry. Are you familiar with Fort Calhoun and that 
process?
    Ms. Macfarlane. Yes. I have not visited the site yet.
    Mr. Terry. You are speaking at a general level here. I 
already know about Exelon, and there was an additional punch 
list once the approval of Exelon had come in and helped with 
the management culture there, and as I understand the new punch 
list, it didn't really have much to do with the management 
aspect but physical things in that plant.
    Ms. Macfarlane. Right.
    Mr. Terry. And it just seems odd that those physical things 
were there a year and a half ago but they weren't on your list, 
and that gives me concern that, well, there is another agenda 
out there, at least questions like that. I just want to put 
that out there.
    Ms. Macfarlane. I understand your concern, and a couple of 
these issues have come up as a result of the licensee 
discovering of these issues. Some of them have to do with 
electrical penetrations into the containment building. There 
are a number of technical issues like this that the licensee 
noticed and therefore we are under obligation to ensure that 
these particular issues are addressed. I invite my colleagues 
to----
    Mr. Terry. Well, I am going to go on to my next question. 
Because of your situation and incidences that occurred 
internally, we wrote a bill for reform of the NRC a couple 
years ago, 3657. Are you familiar with that bill?
    Ms. Macfarlane. I am familiar.
    Mr. Terry. It has not been reintroduced, comma, yet. So I 
am going to go down the list. Is everyone familiar with that 
bill? Ms. Svinicki?
    Ms. Svinicki. Yes.
    Mr. Terry. So one of the major parts of that is about the 
declaration of emergencies that seem to be one of the abuses 
that was identified. So do you believe that the Chairman should 
officially declare an emergency to the Commission and to 
Congress before assuming emergency powers? And I am going to go 
from you, Chairwoman, on down.
    Ms. Macfarlane. I think the Chairman should certainly 
consult with his or her colleagues when declaring an emergency.
    Mr. Terry. And to Congress?
    Ms. Macfarlane. And to Congress.
    Ms. Svinicki. I think certainly members of the Commission 
need to be notified and there needs to be an official 
declaration.
    Mr. Apostolakis. Yes, I agree.
    Mr. Magwood. Yes, there should be an official declaration.
    Mr. Ostendorff. Yes.
    Mr. Terry. I have three more questions that I cannot ask in 
17 seconds.
    Mr. Magwood, I just want to thank you for your strength 
during a difficult process before Chairman Macfarlane got 
there. So good job. Yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the lady from Florida, Ms. Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. Good morning and 
thanks to the Commissioners for your testimony this morning.
    Over the past 5 years or so, certain ratepayers in Florida 
have struggled with the cost and uncertainty of the Crystal 
River nuclear power plant north of Tampa Bay. In 2009, the 
previous owner of the plant embarked on somewhat typical 
repairs to the plant but during those repairs the containment 
wall was seriously cracked, and the new owner announced earlier 
this month its intent to close the plant. That is the first 
closure of a nuclear power plant in Florida, the first major 
closure of a plant in the Southeastern United States. So I 
understand the utility and the NRC face two choices on how to 
decommission the plant. You can either decontaminate it quickly 
over time called decon under the NRC lingo or over 60 years, a 
process known as safe storage where the radioactivity decays 
over time. The utility announced that they are choosing the 
latter option. What is the role of the NRC? Do you agree with 
that? What analysis goes into those options? What is your role? 
Do you agree with that decision?
    Ms. Macfarlane. Those options are both options that are 
available under our regulatory framework. So a plant can decide 
to decommission immediately such as what was done at Maine 
Yankee or it can decide to put the plant in SAFSTOR for up to 
60 years before finally decommissioning the site. So those are 
all available within our purview and our role is to ensure that 
whichever path is chosen is carried out safety and securely.
    Ms. Castor. What are the pros and cons of----
    Ms. Macfarlane. I think that is in part up to the licensee 
to decide what the pros and cons are.
    Ms. Castor. So the NRC's role is not to provide direction? 
The rules provide that they can choose either option and then 
you provide oversight and input once that option is selected?
    Ms. Macfarlane. Correct.
    Ms. Castor. Because it is interesting that the estimates I 
have seen that decommissioning the plant quickly would cost 
under a billion dollars while safe storage over 60 years could 
cost over $6 billion. Does that sound correct in the ballpark?
    Ms. Macfarlane. I am not sure for the particular facility 
at Crystal River. I don't know, maybe my colleagues could 
comment.
    Ms. Castor. There is just a lot of sensitivity because in 
Florida, there was an advanced recovery fee and ratepayers have 
been on the hook for future construction. They may be left on 
the hook for very significant sums of money for a plant that 
was never repaired and one that may not be built, alternative 
fuel, so that kind of cost-benefit analysis does not enter into 
your oversight responsibility?
    Ms. Macfarlane. No, that is a cost-benefit analysis that 
would be done by the licensee.
    Ms. Castor. OK. So at this point once they have selected 
the safe store option, what kind of oversight do you provide on 
that process? What kind of input? How involved, what kind of 
staff requirements? Can you go into a little more detail on 
that, please?
    Ms. Macfarlane. We provide oversight to make sure that what 
remains of the facility remains in a safe and secure manner and 
so we will continually inspect it to make sure that that 
occurs.
    Ms. Castor. So continually how often are you in contact 
with the utility and how often are you on site? Maybe it will 
be necessary for you all to meet with me after the hearing to 
provide those details.
    Ms. Macfarlane. Sure. I am happy to go through the details 
of all of this so that you understand the whole process.
    Ms. Castor. Does the impending sequester, across-the-board 
cuts through all government agencies, affect your ability on 
what you would plan to do on oversight of the decommissioning 
process at Crystal River?
    Ms. Macfarlane. No, it won't. We will ensure that our main 
mission, which is to ensure the operating facilities and 
decommissioned facilities, shutdown facilities, will remain 
safe and secure.
    Ms. Castor. Does it affect it at all?
    Ms. Macfarlane. No.
    Ms. Castor. Thank you very much. I yield back.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognizes the vice chairman of the Energy and Air Quality 
Subcommittee, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate all of 
our panelists coming and engaging in this hearing.
    In a March 2011 information paper to the Commission, the 
NRC staff had cautioned that the cumulative effects of 
regulation ``can potentially distract licensee or entity staff 
from executing other primary duties that ensure safety or 
security,'' and, you know, I have looked at this cumulative 
effect risk and it seems valid.
    [Slide shown.]
    Mr. Scalise. If you can turn your attention to the slide on 
the screen, this is a timeline of the regulatory actions an 
average owner of four reactors would need to comply with. 
Clearly, this represents a lot of new requirements in addition 
to what we already expect of them every day to safely and 
reliably operate their plants.
    We raised this matter in our hearing last July, and the 
NRC's response was ``Process enhancements focus more on 
scheduling and less on reducing or scaling back requirements.'' 
We raised this issue again in our January 15th letter, and the 
NRC's response was, ``The staff is currently working with 
industry to understand the impact of implementation dates,'' 
and mentioned the timely development of guidance.
    So more regulation is not always safer. Sometimes it is 
just more things that they have to do that take away from their 
primary safety responsibility. I don't know how anyone can look 
at this slide and dismiss the cumulative impact of regulations 
as merely a matter of scheduling, and I am told that in 
addition to this, there are approximately 40 more post-
Fukushima items yet to be considered. Is that correct?
    Ms. Macfarlane. We are in the process of considering a 
number of post-Fukushima activities.
    Mr. Scalise. Do you know how many? I am told it is around 
40. Is that an accurate assessment or do you know an exact 
number?
    Ms. Macfarlane. I think it is----
    Mr. Scalise. Higher or lower?
    Ms. Macfarlane. It is lower.
    Mr. Scalise. How much lower?
    Ms. Macfarlane. It depends on exactly how specific you want 
to get.
    Mr. Scalise. Well, if you know it is less than 40, than you 
know it is some number below that, so 30 maybe?
    Ms. Macfarlane. We will get back to you with the specific 
exact number for the record.
    Mr. Scalise. So you will get that back to the committee?
    Ms. Macfarlane. But that does not mean we will decide to 
enforce all of those activities. Those are things that are 
under consideration.
    Mr. Scalise. Well, you know, and that is on top of what 
everybody is already expected to do, you know, and I guess that 
gets to a question of priorities. At some point if you are not 
going to enforce all of them, then you have got to establish 
some set of priorities, I would expect because----
    Ms. Macfarlane. We have.
    Mr. Scalise. You have that?
    Ms. Macfarlane. Yes, we have a set of priorities.
    Mr. Scalise. Do the people who operate all the reactors 
know what those priorities are that you are going to enforce?
    Ms. Macfarlane. Yes, they do.
    Mr. Scalise. And if you can get that to us as well. Can you 
do that?
    Ms. Macfarlane. Sure.
    Mr. Scalise. Because we all want the same thing. We want 
safety. We want the nuclear plants to be safe. But you have 
repeatedly indicated that our plants are safe and that 
regulatory changes are often referred to as safety 
enhancements. So what I would like to know from the panel is 
how to seriously tackle the cumulative impacts of these 
regulations. Who would like to go first?
    Ms. Macfarlane. Well, we have been talking with industry on 
these issues. I know this is an area of concern for them, and 
we are concerned that we do not want to distract licensees from 
their main mission of ensuring safety at the facilities, of 
course. At the same time, I think it is our job to impose 
whatever requirements are needed to provide adequate protection 
of public health and safety.
    Mr. Scalise. But are you going to impose things that you 
yourself know you are not even going to enforce? I mean, is 
that really the responsible thing to do?
    Ms. Macfarlane. Everything we impose, we will enforce, of 
course. Let me ask my colleagues to comment because I think 
they would like to.
    Mr. Apostolakis. About 3 weeks ago, the Commission directed 
the staff to do two broad things. The first one is to propose 
ways of achieving these things, prioritization of new 
requirements or potential requirements with existing 
requirements. For example, when we received the Fukushima 
report from the Near-Term Task Force, we just prioritized the 
Fukushima recommendations regardless of what else was going on. 
So now we are asking the staff to actually consider what else 
is going on in the future and give prioritization of 
everything. And second, we are asking the staff, directing the 
staff to come up with options for giving the licensees the 
option of arguing back why certain requirements they should 
delay because they are doing something else that is of more 
safety significance, and to do that.
    Mr. Scalise. And real quick--I apologize, I have got 3 
seconds left--I just want to ask when you are sending that list 
with 30 or whatever the number is going to be of those new 
items, does that include new regulatory guides, issuing new 
generic communications, using revised interim staff guidance, 
developing inspection findings, disposition of license, 
amendment requests? Are those what would be included in that 
list or would that be outside of that?
    Ms. Macfarlane. These are issues that are under 
consideration. These aren't decisions that we have made yet.
    Mr. Scalise. OK. So as you get those, if you could share 
those with us. Thank you very much. I yield back.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from California, Mr. McNerney, for 5 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. So many questions, 
so little time.
    Commissioner Svinicki, how does the security of nuclear 
plants compare to conventional power plants with regard to 
cyber attacks?
    Ms. Svinicki. I would say that the NRC has some of the, I 
think, most specific and strongest regulations in the cyber 
area. As I mentioned, in 2009, NRC was able and had the 
authority to put in place cybersecurity regulations that have 
the licensees identify all of what we term critical digital 
assets at the site and then propose a security plan to the NRC. 
We have received those from all of our power plant licensees. 
We have reviewed them, and I believe that we have begun our 
process of inspecting those cybersecurity plans that are in 
place.
    Mr. McNerney. So they may be more secure than our 
conventional plants?
    Ms. Svinicki. I have visited one fossil plant but I did not 
discuss cybersecurity there so I am not certain.
    Mr. McNerney. Is there any legislation needed to enable the 
nuclear plants to secure themselves from cyber attack?
    Ms. Svinicki. In my time on the Commission since 2008, the 
Commission has looked very actively at our legal authorities, 
and we have not identified any gaps that we have, so we do not 
seek any additional authorities in this area. We feel that we 
have a very robust authority.
    Mr. McNerney. Thank you. One or two other questions for 
you. Small modular reactors--how long might it take for a 
competent power producer to get a license for a small modular 
reactor? Are there any licenses out there now?
    Ms. Svinicki. There are not, and we have no pending designs 
that are undergoing review right now. We do anticipate with the 
Department of Energy's program now, they made selection of a 
technology for their program late last year. We expect that we 
may receive that application in, I think either late 2013 or 
2014, I believe. Chairman Macfarlane says it will be 2014.
    Mr. McNerney. Are there any foundries in the United States 
capable of producing the containment vessels for these 
reactors?
    Ms. Svinicki. I think I would like to take that question 
for the record to be certain of being accurate in my response, 
but I believe that the intention is that the small modular 
reactors would have components, a substantial portion of which 
would be able to be manufactured here in the United States.
    Mr. McNerney. But the large containment vessel, you are not 
sure of?
    Ms. Svinicki. I am not certain for the various designs that 
are proposed for small modular reactors. I am not sure of the 
largest of the sizes of those. I don't know if any my 
colleagues are.
    Mr. McNerney. How about for the other kind of nuclear 
reactors? Are those foundries capable of producing those?
    Ms. Svinicki. For the large light water reactors, there are 
not U.S. facilities.
    Mr. McNerney. Chairman Macfarlane, you are a true expert in 
nuclear waste. Is that correct?
    Ms. Macfarlane. That is correct.
    Mr. McNerney. You mentioned in your testimony the laser 
uranium enrichment facilities. Are those also used in 
processing nuclear waste?
    Ms. Macfarlane. No, they are not.
    Mr. McNerney. Do you see other facilities for nuclear waste 
than Yucca Mountain on the horizon that could be acceptable 
within a 20-year time frame?
    Ms. Macfarlane. I think what is acceptable and what 
policies develop is in part dependent on what occurs in 
Congress and the Administration. In the original Nuclear Waste 
Policy Act, there was always a question of a second repository, 
and currently, the Yucca Mountain repository was to be 
statutorily bound by certain volume of material. That volume is 
already exceeded at reactors, so there is an open question 
about a second repository.
    Mr. McNerney. In a futuristic sense, do you see nuclear 
waste becoming valuable in its own right within the next 20 or 
50 years?
    Ms. Macfarlane. It is not my area of expertise.
    Mr. McNerney. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Texas, Mr. Burgess, for 5 
minutes.
    Mr. Burgess. I thank the chairman for the recognition.
    Commissioner Svinicki, let me ask you a question. In your 
opening remarks, you made mention of the fact of the ability to 
reenergize or revisit Yucca Mountain would depend not only on 
the funding but the degree to which the data collected during 
the license application, the degree to which that data has 
degraded over time.
    Now, I was fortunate enough to go with Chairman Shimkus to 
Yucca Mountain 2 years ago. At that point they were 6 months 
into their appropriations lapse, and the gentleman who showed 
us around that day did make mention of the fact that there will 
over time be an attrition of that data or degradation of that 
data. It appeared to me that there was a lot of material 
collected during that license application. Do you have a sense 
as to--you know, we always talk about the half life of nuclear 
material but do you have a sense about the half life of this 
data that has been collected during the licensing application 
and how long the inactivity of the Congress or the Commission, 
how that will harm the ability to reclaim that data?
    Ms. Svinicki. Congressman, my testimony in response to the 
prior question discussed the fact that the longer that 
activities have been in suspension, the more challenging and 
expensive the reconstitution is or reconstitution may even be 
imperiled. Although you are mentioning data and analysis, what 
I had in my mind when I made that statement was actually people 
and experts and scientists. I know that the NRC, since the 
suspension of its Yucca Mountain activities, has had 
retirements of scientists who had been on this project for over 
20 years and also we have reassigned individuals. Conceptually, 
they may be available then to be brought back to this work but 
there is additionally, as you mentioned, at Yucca Mountain, 
there were physical samples and core borings. The quality and 
chain of custody of those, in the licensing process is a very, 
very important matter. I don't know the state of DOE's 
preservation of any of that or the chain of custody of those 
materials for the purposes of us relying upon them in a 
scientific investigation. So I think there are many dimensions 
to the challenges of reconstitution but time is the enemy.
    Mr. Burgess. Yes, there is big machinery that was in use 
that seemed to be just out in the weather and had daisies 
growing out of the treads and that sort of thing, which just 
you really had to wonder, this funding lapse or this 
appropriations lapse is very damaging, and the real loser here 
is the poor consumer who has funded this for years with 
surcharges on their bill with the expectation that in the 
future their reliability and their supply of electricity would 
be assured because the federal government was in fact taking 
care of this problem of long-term storage. Is that a fair 
statement?
    Ms. Svinicki. Yes, it is.
    Mr. Burgess. And I do want to acknowledge the fact that you 
have been very responsive to my office and my staff, and I 
appreciate that. I was also concerned when the Fukushima 
reactor went down, the danger from the rods and the spent fuel 
pools. You provided some reassurance to us that that was not as 
big a problem as it appeared in the press, so I was grateful 
for your input that day.
    Chairman Macfarlane, can I ask you a question? I have a 
letter here from the National Mining Association to you dated 
from January 7th of this year, and they have several points 
that they were making, but the lead point and one that is of 
concern to uranium producers in my area of North Texas is the 
relicensing applications that apparently are pretty expensive. 
Their fees are pretty expensive and yet they are told by the 
Commission that the staff man-hours are not there to be able to 
process those relicensing applications because of lack of 
funding, but it does seem like they are funding that activity 
with their application fees. What am I missing here?
    Ms. Macfarlane. No, I think we have--my understanding is, 
we have adequate staff to deal with the new applications and 
the relicensing applications. The issue sometimes is that we 
don't get complete applications and so there is a period of 
back and forth with the licensees.
    Mr. Burgess. Well, and again, the opinion of this letter 
submitted by the National Mining Association was these 
applications were submitted in their entirety and that they 
were complete. I would appreciate some follow-up on this 
because clearly there is a concern, and Mr. Chairman, I would 
ask unanimous consent to put the National Mining Association 
letter into the record.
    Mr. Shimkus. Is there objection? Hearing none, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Since you were so compliant, I will yield back 
my 8 seconds.
    Mr. Shimkus. It is a historical event, your yielding back 
time. The Chair now recognizes the gentlelady from the Virgin 
Islands, Mrs. Christensen, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman. Good morning, 
everyone.
    In addition to the three orders to commercial nuclear 
reactors in the United States in order to address the safety 
concerns raised by the Fukushima accident in Japan that you 
issued last year, the NRC also required all commercial nuclear 
reactors to perform inspections or walk-downs to verify that 
they are prepared to respond to flooding and earthquakes as 
required in their licenses and that all necessary equipment to 
respond to such events is available, functional and properly 
maintained.
    Chairman Macfarlane, I understand that all operators have 
completed walk-downs of their facilities?
    Ms. Macfarlane. They have.
    Mrs. Christensen. And what did the walk-downs find? Did 
they raise any red flags about the preparedness of the U.S. 
nuclear fleet to respond to a serious flood or seismic event?
    Ms. Macfarlane. I appreciate the question. Most plants were 
just finding only minor discrepancies. A few plants identified 
more significant issues in the flooding walk-downs. In the 
seismic walk-downs, no significant issues to date.
    Mrs. Christensen. And the NRC, as I understand it, they 
asked the U.S. commercial reactors to go a step further and 
reevaluate their flood and seismic hazards and compare any 
newly identified hazards with the extreme-events plans are 
designed to withstand. What was the goal of the reevaluations, 
or was that just for the few plants that----
    Ms. Macfarlane. Well, the reevaluation actually was begun 
even before Fukushima, the Fukushima accident, and then it was 
folded into the Fukushima recommendations, but the goal is to 
bring the plants and their seismic hazard analysis and flooding 
hazard analysis into up-to-date current information that is 
available in the earth sciences. So it is updating the hazard 
analysis at all these facilities.
    Mrs. Christensen. I understand that the reevaluations will 
be completed by the end of 2015. Is that correct?
    Ms. Macfarlane. Yes.
    Mrs. Christensen. And then once they are complete, what 
would the next step be for NRC?
    Ms. Macfarlane. Depending on what is found, we will have to 
go individually plant by plant and see if some changes are 
required or not. It depends on what we find at each plant.
    Mrs. Christensen. Thank you. These reevaluations, they are 
to be a critical step in ensuring that the U.S. nuclear fleet 
is prepared to respond to a range of hazards and protect the 
public health in an emergency. I appreciate your answers.
    I don't have any further questions, Mr. Chairman. I yield 
back.
    Mr. Shimkus. The gentlelady yields back her time and now 
the Chair recognizes the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thank you very much to you all for being here today. We really 
appreciate it.
    If I could just kind of back up a little bit. There were a 
few comments made today about cybersecurity, and as we all 
know, in the last month, month and a half, it has been in the 
news quite a bit, and in fact, just last week in my district, 
we had a large cybersecurity event that we had the FBI in to 
talk to about 170-plus people in my district as to what is 
happening and what they have to do protect themselves and their 
businesses. But if I could, going back, the NRC had an order 
after September 11th that had ordered nuclear power plants to 
enhance their security including requirements for certain 
cybersecurity threats, and this effort later culminated in a 
specific cybersecurity rule in 2009 and the associated 
regulatory guidance was based on the cybersecurity standards 
published by the National Institute of Standards and Technology 
and the Department of Homeland Security, and if I could, 
Commissioner Ostendorff, could I ask if you could give a brief 
overview of how that rule is being implemented and the level of 
coordination between the NRC and other agencies.
    Mr. Ostendorff. Thank you, Congressman, for the question. 
This is a complicated area. Two years ago, this Commission 
worked with FERC and NERC to outline the lines of demarcation 
using what is called a bright-line survey to ensure that we had 
a unitary regulatory approach that only the NRC would regulate 
on-site, basically the transmission line boundary of the 
plants, recognizing that NERC on behalf of FERC is regulating 
externall y. So that I would say is a great example of positive 
cooperation inside the U.S. interagency to ensure we did not 
have conflicting regulatory inspections, rules, et cetera.
    The cyber rule that our licensees are required to be in 
compliance with as of the end of December of last year, 
currently our staff is out and doing inspections to ascertain 
compliance with that rule. I think our staff is well equipped 
to do that. I think we will find some things we hadn't thought 
about. This is a tough area. But I think we have the proper 
resources and the proper approach going forward. This 
Commission is staying very actively involved with our federal 
agency counterparts. Just last Thursday, we spent 2\1/2\ hours 
in a classified briefing with DHS on cyber issues for the 
United States and so I think it is an issue that is very much 
before us as a Commission and an agency.
    Mr. Latta. Well, thank you very much, and Mr. Magwood, if I 
could just ask you briefly, I know that in 2011 when you all 
were testifying before us here in committee, I had asked 
questions, just kind of paraphrasing how if you had all the 
information that you needed to make informed decisions and 
pretty much you had said most of the time that that was 
happening. Can you tell me how are things going right now with 
the flow of information back and forth for you all to make 
these very important decisions that come before the NRC today?
    Mr. Magwood. Actually, Congressman, the question has never 
come to my mind in the last 6 or 7 months so I think the 
situation at the NRC is working very well.
    Mr. Latta. Thank you very much. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Macfarlane, in your testimony you mentioned the 
importance of international cooperation with the NRC. In 2011, 
our committee members led by Representative Murphy, we did a 
trip to France and Sweden to see how the French and Swedish 
reprocess and store their nuclear waste. I was impressed with 
the progress not only in France, because I was there in 1998 to 
look at how they are reprocessing their waste but particularly 
with Sweden seeing what they have done with even a prototype of 
a deep storage. I am interested in learning what cooperation is 
presently taking place between the Commission and, for example, 
Sweden and France and what lessons can be taken from their 
models.
    Ms. Macfarlane. In terms of nuclear waste disposal?
    Mr. Green. Nuclear waste disposal, or recycling.
    Ms. Macfarlane. Right. We don't do a lot on the back end of 
the fuel cycle with these countries. We certainly exchange 
information with their regulators and what their regulators 
regulate because it is not our job to make policy for the back 
end of the fuel cycle in the United States. We just oversee the 
existing facilities. So we are aware of what is going on there 
and we are aware of what their regulators are doing at these 
facilities.
    Mr. Green. Well, it sounds like you are saying that for the 
United States to be involved in reprocessing, and even for the 
long-term nuclear storage, whether it be Yucca Mountain or 
something similar to what Sweden has done, you need more 
guidance from Congress?
    Ms. Macfarlane. Yes, please.
    Mr. Green. Myself along with 25 other Democratic members 
sent a letter to you 3 weeks ago calling for your agency to 
adopt a flexible performance-based approach as recommended by 
the independent ACRS with regard to mandating filters on 
boiling-water reactors. First I wanted to ask, what is the 
status of the Commission's response to our letter?
    Ms. Macfarlane. We responded to your letter.
    Mr. Green. You did?
    Ms. Macfarlane. We sent you a response.
    Mr. Shimkus. Unacceptably, but they did respond.
    Mr. Green. OK. Second, I would like to learn what outreach 
the Commission has made toward industry and other stakeholders 
in order to achieve the regulatory goal in the safest and most 
effective and least costly manner.
    Ms. Macfarlane. We meet regularly with industry and other 
stakeholders who are interested in these issues and understand 
their concerns and work together.
    Mr. Green. Another question. In your testimony, you state 
the NRC, due to the lack of final waste confidence rule, will 
not issue any final licenses until at least September of 2014. 
As you are aware, most legislation that is passed by this 
chamber and signed into law typically calls for agencies to 
issue rules within 6 to 12 months, and I would like to hear why 
the Commission, for an issue that goes to the heart of your 
agency's duties, needs in excess of 2 years to issue a final 
rule.
    Ms. Macfarlane. In developing an environmental impact 
statement and other processes we are governed by NEPA law and 
other laws, and there is a public comment period that must be 
incorporated into all these things, and this is in part what 
takes time.
    Mr. Green. Additionally, I would like to learn what 
guidance the Commission has provided these facilities whose 
licenses are being delayed.
    Ms. Macfarlane. We are actively working on the licenses. We 
just won't issue the final licenses or license renewals in this 
period.
    Mr. Green. With the likelihood of sequestration hitting all 
federal agencies by midnight tonight, I would like to ask first 
what steps is the NRC taking in order to best comply with 
sequestration. Are furloughs or layoffs anticipated?
    Ms. Macfarlane. We do not anticipate any furloughs or 
layoffs.
    Mr. Green. And second, will sequestration in any way 
degrade the NRC's ability to keep our Nation's nuclear 
facilities safe?
    Ms. Macfarlane. Absolutely not.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Shimkus. And if the gentleman would yield, just to 
correct the record, I think you were referring to a Barrow 
letter that you signed that I am unsure of whether the 
Commissioner responded to. Would someone want to address that?
    Ms. Macfarlane. I believe we have not responded to that 
letter. Sorry.
    Mr. Green. You haven't responded to the Barrow letter?
    Ms. Macfarlane. Right.
    Mr. Green. Because obviously from Georgia, they have a 
bigger interest. We are having our problems in Texas because 
one of our investors for the South Texas expansion also owned 
Tokyo Power, so we are still looking for $125 million to expand 
nuclear power in South Texas. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the other gentleman from Ohio, Mr. Johnson, for 
5 minutes.
    Mr. Johnson. I thank the chairman for the recognition, and 
I am new to the Energy and Commerce Committee so I look forward 
to the discussions we will have with you Commissioners, and I 
thank the chairman for holding this hearing on a very, very 
important topic.
    Ms. Macfarlane, according to the Japanese government's 
report, and I quote, ``TEPCO's manual for emergency response to 
a severe accident was completely ineffective.'' What is your 
view and the view of your colleagues about the ability of U.S. 
emergency response capability to a severe accident?
    Ms. Macfarlane. I think we are prepared but I think we must 
be mindful that there are situations that we may not be 
expecting and we need to learn from operating experience, but I 
invite my colleagues to comment.
    Mr. Apostolakis. One of the problems that they had in Japan 
is that there was no single authority making decisions. In this 
country, we have made sure that there is one authority. We are 
not going to go to higher political figures to approve what 
needs to be done. So I believe that we are in much better shape 
than the Japanese were at that time.
    Mr. Ostendorff. Congressman, I would just add to my 
colleagues' comments two specific issues we are also 
addressing. One, as mentioned earlier, in response to a prior 
question, we have not typically dealt with multiple-unit 
accidents. We have dealt with a one-reactor accident at one 
site even if that site had two or three reactors. So we are 
looking at multi-unit response. Secondly, we are looking at how 
to integrate our casualty and operating procedures in a more 
effective way.
    Mr. Johnson. Sure. Well, I appreciate those answers, and 
Mr. Apostolakis, you actually hit on something that I want to 
go to next. The Japanese Diet report stated, ``We believe that 
the root causes were the organizational and regulatory systems 
that supported faulty rationales for decisions and actions.'' A 
report by the American Nuclear Society Special Committee on 
Fukushima stated, ``The committee believes that in responding 
to the accident at the Fukushima Daiichi plant, human error and 
flows in governance and regulatory oversight contributed to the 
severity of the accident.''
    Mr. Apostolakis, you just mentioned that we are way ahead 
of where the Japanese were. Don't you think it is important to 
compare our regulatory systems with Japan's to see if we share 
some of the gaps that contributed to the accident?
    Mr. Apostolakis. There is no formal comparison that the 
Commission has done. However, that doesn't mean that we are not 
aware of the differences, and if one wanted a more formal 
approach to the evaluation, that would be an interesting thing, 
but I don't think we can say that we completely ignored the 
differences between us and the Japanese when we issue actions, 
orders or other regulations.
    Mr. Johnson. Well, I appreciate that. It seems to me that 
such a comparison would reveal and further validate what you 
just testified to, that America is much further ahead of where 
the Japanese were in terms of information flow, decision 
making, and it would seem to me that that would be an important 
step prior to issuing additional regulations that are going to 
additionally hamstring our nuclear industry from operating, and 
in some cases, according to nuclear industry experts, drive our 
team our of existence.
    So I am not sure we are doing our homework. We know that we 
are ahead of the Japanese and yet we want to proliferate 
regulations to address what? I mean, if we don't know what the 
gaps are, what are we addressing?
    Mr. Ostendorff. I wanted just to comment. I think we have 
heard loud and clear today, I don't think we have been 
effective at communicating back to this committee a 
satisfactory answer to your question. I think the Japanese 
Lessons Learned Directorate, about 20 people on our staff, have 
been working these issues, looking at differences. I think we 
failed to communicate that in a clear manner to this committee 
and I think I need to talk to my colleagues about how can we 
better respond because I think a lot of the work that we have 
done, we have not appropriately told you how we are doing it.
    Mr. Johnson. Well, I would appreciate responses to that 
because I think that is a necessary first step before we start 
issuing regulations that address some gap that we are not even 
aware of.
    Mr. Chairman, I yield back.
    Mr. Shimkus. And I appreciate the gentleman from Ohio. 
Maybe we will get a chance to officially ask you for a better 
response. And now the Chair recognizes the gentleman from New 
York, Mr. Engel, for 5 minutes.
    Mr. Engel. Thank you very much, Mr. Chairman, and I welcome 
everyone. Thank you for joining us here today.
    My district is very close to the Indian Point nuclear plant 
in Buchanan, New York. The safety of Indian Point continues to 
be one of the most serious issues facing the Hudson Valley 
region, and I have been calling for it to be shut down for 
years. I was the first Member of Congress to call for its 
shutdown, probably 10 years ago, and Governor Cuomo has also 
called for it to shut down. The bottom line is the siting of 
the plant, it is near the major metropolitan area in the 
country, the New York metropolitan area, and if it were being 
built today, it would never be built in Buchanan, New York. 
Frankly, I think that the scrutiny of the renewal for the 
licenses of these plants should be as great as a new plant 
being built. I don't understand why there seems to be less of a 
threshold for relicensing of the plants than there is for a 
brand-new plant. Safety is safety, and it should be the same 
for both of them.
    Since the disaster at Fukushima, the need to shut down 
Indian Point, as far as I am concerned, has only grown. I am 
not opposed to nuclear power. I never mentioned closing Indian 
Point until I started learning about it. It is built on a major 
fault. On September 11th, one of the planes hitting the World 
Trade Center flew directly over Indian Point. It is just 
unbelievable. I am happy that the NRC has implemented three 
immediate orders but I hope there will be strong follow-up, 
especially in regards to plants like Indian Point that have a 
history of problems. The fire last month at one of their 
transformers is just the latest in a long line of a systematic 
failures at the Point. Let me say, every Member of Congress who 
has a district very near to Indian Point has called for its 
closing.
    Beyond the safety issues at Indian Point, there are 
numerous environmental concerns--the effect on the Hudson 
River--and I have asked the NRC to see if we can move to a 
closed-cycle cooling system, which would have less of an impact 
on the water and the fish. Another major concern is the 
radioactive waste stored in the pools, almost three times the 
amount that is currently being stored there than was stored at 
Fukushima, and the plant sits near a reservoir that serves 
almost 9 million people. I hope we will find a long-term plan 
for storing this waste. I will soon be reintroducing 
legislation that would call for material to be moved into dry 
casks within a year, and I hope that we will consider it.
    Let me say that the safety violations at Indian Point and 
other nuclear power plants have raised serious questions about 
nuclear power safety. I anticipate that the NRC will continue 
to monitor the plants closely and to see that the three 
immediate orders are implemented quickly and effectively.
    Can someone please tell me why there seems to be a lesser 
standard for the relicensing of plants than there is to build a 
plant? If a plant is unsafe or if there are questions about its 
safety, why should it matter if it is newly built or if it is 
an old plant where the license is being renewed? Safety is 
safety and that is the bottom line. I am wondering if anybody 
can tell me the rationale for that.
    Ms. Macfarlane. I will take a stab at that and offer it to 
my colleagues, but very briefly, in relicensing, we look at the 
overall systems and structures in the plant. We continually 
evaluate the equipment, inspect and oversee the equipment, the 
operations of the facility, the safety culture of the facility. 
We have resident inspectors on site. Currently right now at 
Indian Point there are four for two reactors who every day are 
there overseeing the safe operation of the facility, but let me 
ask my colleagues to jump in.
    Mr. Apostolakis. Yes, I don't think it is accurate to say 
that we have a lesser standard for license renewal. The license 
renewal focuses on aging effects, and I think that is 
appropriate because the plant has operated for 40 years or will 
have been operated for 40 years. If anything else happens that 
threatens safety, as the chairman said, then it is handled 
according to the normal processes we have for operating plants, 
so the only new thing is this aging effect, so it is not a 
lesser standard, it is a more limited review. The scope is more 
limited.
    Mr. Engel. Well, it still would seem to me--I understand 
what you are saying, but it still would seem to me that the 
scope should be broadened. There have been questions about it 
and they are legitimate questions. It is not just two or three 
people who are opposed to nuclear power. There are serious 
questions by those of us that support nuclear power, and I do. 
I think the United States has to have a balanced energy policy, 
but I think that it is clear to me that Indian Point should be 
shut down. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. Thank you, Mr. Chairman.
    I noted, Commissioner Magwood, you were talking of issues 
and the things that you are faced with, and I am just trying to 
make the point that you all do work and studies for us with 
dangerous, threatening and relentless enemies out there.
    I think I want to ask Commissioner Apostolakis--I do better 
calling you George. Did I pronounce it right?
    Mr. Apostolakis. Yes.
    Mr. Hall. A year ago, you testified before the Senate EPW 
committee and made the following remarks: ``I don't think that 
what happened in Fukushima can happen here, and I repeated, it 
was not unthinkable.'' Were you talking about it was not 
unthinkable that that could happen there? Is that what you 
meant? It is not important, but that is the way I took it.
    Mr. Apostolakis. People were saying that what happened in 
Fukushima was an unthinkable event. I said no, it was not. I 
mean, there were so many flaws in the system and the design 
that really it was not unthinkable.
    Mr. Hall. Well, let me go, and in fairness to you, say what 
you did say. You said, ``I don't think what happened in 
Fukushima can happen here, and I repeat, it was not 
unthinkable. They made terrible mistakes. There are, I think, a 
couple of things that stand out if you look at happened in 
Japan. The regulatory authority there, NISA, was very, very 
weak technically and they didn't have the amount of 
independence that we have, for example. The second is more 
technical. It has to do with tsunami calculations where they 
were very poorly done, let us put it that way. They ignored 
data from the past.'' Is that still--do you still feel that 
way?
    Mr. Apostolakis. This is still my view, yes.
    Mr. Hall. You don't think an accident like Fukushima can 
happen here?
    Mr. Apostolakis. No, I don't think so.
    Mr. Hall. Well----
    Mr. Apostolakis. Well, I mean----
    Mr. Hall. I hope so. I hope you are right. But, you know, 
some 15 or 20 years ago, we did a study in the committee I 
chaired at that time studying asteroids, and we found out 
during the hearing--and I got people from Russia, China, 
England and, I believe, France that were supposed to have 
witnesses here but none of them showed because they were told 
that we were going to get a world operation to look for 
asteroids because they affect the world and not just Texas or 
not just your State or this Nation, and none of them showed. 
But during the committee hearing, it came up that an asteroid 
had just missed this country by 15 minutes some time the year 
before. No one knew it. I didn't know it. No one knew it, and 
we really ought to be studying that.
    I think isn't it more reasonable to think and to thoroughly 
consider the imposition of additional requirements and ensure 
that any requirements are cost-effective, that an accident like 
Fukushima can happen here? The asteroid just happened in 
Russia, and we got pictures of it. We know what happened there. 
We don't know why it was there or when it was coming or when 
the next one will come. You protect us from very serious and 
relentless enemies. Why is it that you think that that just 
couldn't happen? Please don't let up, because it could happen.
    Mr. Apostolakis. Well, I don't think the question really 
should be whether something can happen. It is really a question 
of probability, and for example, you mentioned the asteroid 
issue. I don't think that there could be a rationale on our 
part to start protecting nuclear plants from them. It happened 
in Russia, but this is not something that we should do.
    Mr. Shimkus. I apologize. I have no idea what is going on 
with the microphone. We will work through it. Would the 
gentleman continue?
    Mr. Hall. Don't you kind of think the public might benefit 
from a better understanding of the differences between nuclear 
safety in Japan and nuclear safety here?
    Mr. Apostolakis. No, we certainly would benefit from that, 
yes.
    Mr. Hall. But if you think it couldn't happen here, I don't 
understand how you can answer that last question as you did. I 
know things can happen. I don't know how much more time I have.
    Mr. Shimkus. Your time is expired.
    Mr. Hall. In that case, I want to yield a question--oh, the 
gentleman is gone.
    Mr. Shimkus. No, the gentleman's time is expired.
    Mr. Hall. I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. Just in 
time for Mr. Markey. The Chair now recognizes the gentleman 
from Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    The Fukushima meltdowns taught us that not only do we need 
to develop safeguards to present nuclear accidents but we must 
also plan strategies to respond to such an accident and to 
minimize the damage. Twenty-three reactors in this country have 
the same design as the ones that melted down in Japan including 
Pilgrim in Massachusetts and Vermont Yankee. The NRC staff 
recommended that these reactors have vents that could release 
hydrogen gas to prevent the sort of explosions that occurred in 
Japan and also that the vents include filters to remove the 
radioactive materials that would be released into the air if 
the vents were used. These filtered vents are already used in 
Canada and in many European countries. I strongly urge the 
Commission to follow the recommendations of the technical 
staff. If you fail to do so, I believe you will be making a 
mistake. I think you have a responsibility to ensure public 
health and safety in the face of a nuclear catastrophe that we 
know could happen here.
    You have all testified in the past that you support the 
Commission's internal commission procedures. Do you all believe 
that we should follow those internal Commission procedures that 
are currently in force? Do you all believe that that is the 
case?
    Mr. Apostolakis. Yes.
    Ms. Macfarlane. I think we should strive to comply with our 
internal Commission procedures but they don't foresee every 
situation that might occur.
    Mr. Markey. So I have here a copy of your procedures for 
transmitting sensitive documents to Congress, which says that 
your general practice is to release them to members of your 
oversight committee, and that includes every member of this 
committee. Over the years, members of this committee have 
requested and received hundreds of sensitive documents as part 
of their oversight efforts including security-sensitive 
materials, proprietary materials and other nonpublic documents. 
I believe that every member of this committee will be as 
disturbed as I was to learn that in its failure to fully 
respond to several of my most recent oversight letters, the 
Commission is currently violating its internal Commission 
procedures. The Commission is even considering a change to 
these procedures to enable it to refuse future requests for 
documents made by members of this committee. So I ask all of 
you, do you support your current procedures to provide 
sensitive documents to members of your oversight committee?
    Ms. Macfarlane. Right now, the Commission is evaluating the 
request that you made, and we are in deliberations on it, and I 
don't want to say any more about that until we have actually 
been able to go through them.
    Mr. Markey. Well, I think that in fact the Justice 
Department has made a ruling that there is not a conflict with 
the Freedom of Information Act, that in fact their current 
guidance says that giving materials to a Member of Congress 
should not result in an agency having to make them public. So 
if you make this change, you will be obstructing legitimate 
Congressional oversight of your activities and you will be 
creating a more secretive agency, and I am going to resist this 
in every single way I can.
    The San Onofre nuclear reactors have been shut down for 
more than a year because of unexpectedly high levels of wear 
found in both steam generators. Three weeks ago, Senator Boxer 
and I sent you a document I obtained that said that Southern 
California Edison and Mitsubishi engineers had identified some 
technical problems that could have caused this wear long before 
the steam generators were installed, but the document also says 
that they chose not to implement recommended design fixes 
because they wanted to avoid a more rigorous safety review and 
licensing process at the Nuclear Regulatory Commission. You 
then told us that you had initiated an expansive investigation 
regarding the completeness and accuracy of information that had 
been provided to you, and I understand that the Inspector 
General has also initiated an investigation of its own. So 
Chairperson Macfarlane, Southern California Edison wants to 
restart one of the reactors as soon as this summer. Can you 
commit to postponing any decision on this request until after 
the pending investigations are completed and reviewed by the 
Commission?
    Ms. Macfarlane. What our usual process is in this kind of 
situation, when all the technical aspects of the particular 
issues have been adequately addressed, our staff, our executive 
director of operations will check with our office of Inspector 
General, our office of investigations to ask if there are any 
issues or information that might prevent the restart, and that 
is how we usually go about this.
    Mr. Markey. Well, I strongly recommend that you complete 
the investigation before you give permission to restart. I 
think that the prudent way to proceed on this issue, and I 
thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time is expired. Just for 
informing the public, there are votes now on the floor. We are 
going to try to make sure those in attendance get a chance to 
speak. I would encourage people to do it quickly.
    I would also, just in response to my colleague, I think 
there is an understanding of personal and executive sessions 
and issues in the record that may not be appropriate to air, 
and so we can address that later.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman, and I do appreciate 
all of you all being here. I will tell you that in my first 
term of Congress, that first meeting that I had with you--not 
you, Chairman, but before you were on board--was probably the 
scariest hearing that I participated in just because I knew the 
important issues you all were dealing with and the problems 
that you all were having were of great concern. I feel much 
better today. While we may or may not agree on some issues, I 
feel very confident that you all are working hard and trying to 
move in the right direction, and it makes me feel much better 
than I did this time a little short of 2 years ago. So I do 
appreciate that.
    I would ask you all to look at, and particularly, I am 
going to address this question to you, Commissioner Ostendorff. 
You all have had some time working on this and the 
subcommittees have. In the Commonwealth of Virginia, we had a 
nuclear power plant, North Anna, which after experiencing a 
nearby earthquake in Mineral, Virginia, was shut down for a 
period of time. We understand this shutdown was a result of the 
earthquake and subsequent NRC processes were a positive example 
of bringing a unit back online after an atypical event. The San 
Onofre Nuclear Generating Station, which was just mentioned, is 
currently offline, and I know there may be other issues 
involved, but it had an atypical event that initially at least 
didn't rank as high as the earthquake, and I am just wondering 
if you can explain if the process that was used in North Anna 
is also the same process that is currently being used in that 
situation, San Onofre.
    Mr. Ostendorff. Congressman, I would comment that overall, 
the process is the same as far as how a determination is made 
whether it is safe to technically restart a nuclear power 
plant. There are some significant differences, however, between 
the San Onofre case and the North Anna earthquake from August 
of 2011. Those differences involve other pending 
investigations, which we can't discuss in this forum. They also 
involve adjudicatory matters before the Atomic Safety and 
Licensing Board, so I will acknowledge there are some 
significant differences there.
    Mr. Griffith. All right. I appreciate that.
    I had another question, and I want to just make a 
statement. It appears that when looking at regulations, and I 
have been given some data that it appears that the estimates 
for new regulations, the cost of those estimates have been off 
by being as much as 350 percent more. I hope that you all will 
look at your processes behind the scenes, because when you are 
deciding what to do on regulation, there is a cost analysis 
involved, and if you are off by 350 percent, it indicates that 
something is not being analyzed correctly and I would hope that 
you all would do a better job on that as you go forward with 
any new regulations.
    And with that, Mr. Chairman, I am going to yield back.
    Mr. Shimkus. Thank you. The Chair recognizes the gentleman 
from Georgia, Mr. Barrow, for 5 minutes.
    Mr. Barrow. I thank the chairman. I thank the Commissioners 
for appearing today. I just want to share my concerns about 
proposed regulations to require the installation of external 
containment filters on boiling-water reactors. I want to begin 
by saying, I understand the Commission requires a cost-benefit 
analysis in order to make sure there is adequate protection for 
the public. I also understand that there is a movement to go 
forward with such regulations even in the absence of a finding 
that it is necessary in order to provide adequate protection 
for the public concern.
    I have generated a letter, which has been subscribed to by 
a number of my colleagues, members of the House as diverse as 
Mike McIntyre, Jim Matheson, myself, Mr. Dingell on the one 
hand and other members like Steny Hoyer, Jim Clyburn, Mike 
Doyle, Joe Crowley, Rob Andrews and Chaka Fattah on the other, 
basically making the case that we want to have you all make 
sure that there is an adequate cost-benefit analysis performed 
before imposing any such mandate on the industry. The letter 
concludes as follows: ``Absent a finding that mandatory filter 
installation is necessary to ensure adequate protection of the 
public, we believe the Commission should work with the industry 
to achieve the regulatory goal in the safest, most effective 
and least costly manner.'' That letter speaks for itself, and 
with the chairman's permission, I would like to submit this 
letter for inclusion in the record.
    Mr. Shimkus. Without objection, so ordered. We have already 
discussed the letter.
    Mr. Barrow. I want to make it a part of the record on my 
time. Thank you, Mr. Chairman, and thank you all.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes our final member, Mr. Kinzinger from Illinois, 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you all 
for your time today. Chairman Macfarlane, I am happy to see 
that the focus of this hearing is on the important work of the 
Commission. I believe your work over the next several years 
will determine the viability of the industry, and your 
decisions will have an impact on U.S. energy policy for 
decades.
    The members of this committee need to be aware that the 
bounty of natural gas that we have unlocked through technology 
and innovation is a blessing but it is going to bring new 
challenges. I have 35 power-generating facilities in my 
district, and every single one is being impacted by the lower 
price of natural gas including the four nuclear power plants. 
Good for the consumer but it may not be good for a diverse 
energy supply. We have some of the best minds in the world 
creating and collaborating on new nuclear technology. It would 
be a shame if low-cost natural gas discouraged U.S. companies 
from investing in nuclear R&D, facilities and education.
    A lot of what you heard today is about the regulatory 
process, and I believe that the members who support nuclear 
power want to ensure that the Commission is operating under the 
best processes for the safety of the plant. I hope you will 
help us in this effort by answering a few more questions. We 
will just make them quick yes or no questions.
    I understand that the Atomic Energy Act grants the 
Commission broad authority to issue safety requirements and 
that the Commission's regulatory tools include orders, 
rulemaking and policy statements. So just yes or no, please. 
With regard to orders, is it true that the Commission has the 
authority to issue orders with merely a majority vote? We will 
start with you.
    Ms. Macfarlane. Yes.
    Ms. Svinicki. Yes.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Shimkus. Is it that the Commission has the authority to 
issue orders without conducting technical and cost-benefit 
analysis?
    Ms. Macfarlane. If we deem it adequate protection, yes.
    Mr. Kinzinger. So yes?
    Ms. Svinicki. Yes.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. A regulatory basis is required for orders.
    Mr. Kinzinger. OK. Is it true that the Commission has the 
authority to issue orders without any public participation? Do 
you have the authority?
    Ms. Macfarlane. Yes, we do.
    Ms. Svinicki. Yes.
    Mr. Kinzinger. And as I understand it, safety requirements 
that the Commission determines are necessary for the adequate 
protection of safety are not subjected to cost-benefit 
analysis. The less significant safety enhancements are subject 
to cost-benefit analysis, and if found inadequate, can be 
challenged under the agency's Backfit Rule. Is it true that 
orders are not subject to challenge under the Backfit Rule?
    Mr. Apostolakis. True.
    Ms. Macfarlane. Yes.
    Mr. Kinzinger. Yet here we have the agency staff 
recommending that you issue an order to mandate filter systems, 
an approach that your expert advisory body, the Advisory 
Committee on Reactor Safeguards, disagrees with, that failed a 
cost-benefit analysis and about which there are serious 
questions that agency staff may have underestimated the cost. I 
believe that orders are a necessary and a valid tool where 
there is an urgent safety need in the immediate aftermath of 
events like September 11th or Fukushima. However, it is nearly 
2 years since the Fukushima accident and the Commission acted 
on the most urgent, safety-significant changes a year ago. It 
is time to return to what we members would call regular order: 
restoring the agency's historic reliance on rigorous technical 
and cost-benefit analysis and public involvement inherent in 
the process of rulemaking.
    I understand my friend and colleague, Lee Terry, is working 
on legislation in this area, and I plan to work with him to 
address my concern that the Commission's use of orders should 
be limited to urgent, significant safety needs, and with that, 
Mr. Chairman, I will yield back.
    Mr. Shimkus. The gentleman yields back his time. We want to 
thank you for coming. It will not be your last appearance. I 
know you are looking forward to that.
    If there are no other members wishing to ask questions, 
members are reminded that the record will remain open for 10 
business days to submit additional questions for the record.
    There being no other business to come before the 
subcommittee, the subcommittee stands adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
